<html>
<title> - LEGISLATIVE HEARING ON H.R. 1137, H.R. 3047, H.R. 3249, H.R. 3286, H.R. 3415, H.R. 3954, AND H.R. 4084</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
              LEGISLATIVE HEARING ON H.R. 1137, H.R. 3047,

                    H.R. 3249, H.R. 3286, H.R. 3415,


                        H.R. 3954, AND H.R. 4084

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 8, 2007

                               __________

                           Serial No. 110-60

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                     U.S. GOVERNMENT PRINTING OFFICE

39-469 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado, Ranking
PHIL HARE, Illinois                  MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              GUS M. BILIRAKIS, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                            November 8, 2007

                                                                   Page
Legislative Hearing on H.R. 1137, H.R. 3047, H.R. 3249, H.R. 
  3286, H.R. 3415, H.R. 3954, and H.R. 4084......................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    34
Hon. Doug Lamborn, Ranking Republican Member.....................     3
    Prepared statement of Congressman Lamborn....................    35
Hon. Shelley Berkley.............................................     8

                               WITNESSES

U.S. Department of Veterans Affairs, Bradley G. Mayes, Director, 
  Compensation and Pension Service, Veterans Benefits 
  Administration.................................................    18
    Prepared statement of Mr. Mayes..............................    41

                                 ______

American Legion, Steve Smithson, Deputy Director, Veterans 
  Affairs and Rehabilitation Commission..........................    10
    Prepared statement of Mr. Smithson...........................    38
Brown, Jr., Hon. Henry E., a Representative in Congress from the 
  State of South Carolina........................................     7
    Prepared statement of Congressman Brown......................    36
Filner, Hon. Bob, Chairman, Full Committee on Veterans' Affairs, 
  and a Representative in Congress from the State of California..     5
Paralyzed Veterans of America, Richard Daley, Associate 
  Legislation Director...........................................     9
    Prepared statement of Mr. Daley..............................    37

                       SUBMISSIONS FOR THE RECORD

American Veterans (AMVETS), Raymond C. Kelley, National 
  Legislative Director, statement................................    45
Disabled American Veterans, Kerry Baker, Associate National 
  Legislative Director, statement................................    46
Gold Star Wives of America, Inc., Rose Elizabeth Lee, Chair, 
  Government Relations Committee, statement......................    51
Langevin, Hon. James, a Representative in Congress from the State 
  of Rhode Island, statement.....................................    52
National Funeral Directors Association, Lesley Witter, Director 
  of Political Affairs, letter...................................    53
National Veterans Legal Services Program, Ronald B. Abrams, Joint 
  Executive Director, statement..................................    53

                   MATERIAL SUBMITTED FOR THE RECORD

Hon. James B. Peake, M.D., Secretary, U.S. Department of Veterans 
  Affairs, to Hon. Bob Filner, Chairman, Committee on Veterans' 
  Affairs, letter dated March 6, 2008, transmitting 
  Administration views for H.R. 4084.............................    58


                   LEGISLATIVE HEARING ON H.R. 1137,



              H.R. 3047, H.R. 3249, H.R. 3286, H.R. 3415,



                        H.R. 3954, AND H.R. 4084

                              ----------                              


                       THURSDAY, NOVEMBER 8, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
Subcommittee on Disability Assistance and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:01 p.m., in 
Room 334, Cannon House Office Building, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Hall, Berkley, Lamborn and Turner.
    Also Present: Representatives Filner and Brown of South 
Carolina.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. Good afternoon, ladies and gentlemen. The 
Committee on Veterans' Affairs, Subcommittee on Disability 
Assistance and Memorial Affairs, will come to order for a 
legislative hearing on H.R. 3047, H.R. 3249, H.R. 3286, H.R. 
3415, H.R. 1137, H.R. 3954, and H.R. 4084.
    Before we begin, I ask unanimous consent that Congressman 
Filner and Congressman Brown be invited to sit at the dais and 
prevent their testimony for the Subcommittee hearing today.
    Hearing no objection, so ordered.
    Congressman Filner and Congressman Brown, welcome.
    Good afternoon, and I would ask that we all rise for the 
Pledge of Allegiance. Flags are at either end of the room.
    [Pledge of Allegiance.]
    Mr. Lamborn. Mr. Chairman, are we presenting or preventing 
their appearance?
    Mr. Hall. I misspoke. They are presenting their testimony.
    First of all, thank you to all the witnesses for your 
testimony on these seven noncontroversial but critical bills 
concerning memorial benefits, pensions and the U.S. Department 
of Veterans Affairs (VA) claims processing system. I would 
specifically like to thank my colleagues, Mr. Filner, the 
Chairman of the full Committee; Ranking Member Lamborn; Ms. 
Berkley; Mr. Langevin; and Mr. Brown for joining us today. I 
look forward to hearing their testimony on their respective 
legislation.
    Four of the bills that we will consider today address the 
memorial assistance and death benefits provided to the families 
of our veterans. At these times of grief, it is important that 
we honor our veterans' service and sacrifice.
    Due to the current deployment schedule of our active-duty 
troops and the aging of our veterans from previous conflicts, 
it has become increasingly difficult to ensure military 
presence for proper honors details at veterans' funerals. The 
``Providing Military Honors for Our Nation's Heroes Act,'' H.R. 
3954, introduced by Chairman Filner, attempts to increase the 
number of details available to veterans' families and help 
ensure that the proper honor is provided at veterans' burials. 
This legislation would authorize the Secretary of Veterans 
Affairs to reimburse volunteers from approved organizations for 
expenses incurred while providing these vital ceremonial 
duties.
    The ``Veterans Burial Benefits Improvement Act of 2007,'' 
H.R. 3249, introduced by my colleague from Nevada, Ms. Berkley, 
would increase burial allowances and plot allowances for both 
service-connected and non-service-connected veterans. This 
legislation allows for annual adjustments to ensure that these 
benefits will continue to keep pace with rising funeral and 
burial costs, ensuring that all of our veterans can be interred 
in a proper and respectful manner.
    H.R. 3415, introduced by Mr. Langevin, aims to assist 
family members of those buried in the American Battle Monument 
Commission cemeteries abroad by providing them with a 
remembrance of their loved one on U.S. soil. As it may prove 
difficult for family members to travel to these overseas grave 
sites, this legislation would authorize memorial markers for 
this limited population of servicemembers, which could then be 
placed in national veterans' cemeteries closer to home.
    Today, we will also consider the appropriateness of current 
law regarding Dependency and Indemnity Compensation (DIC). H.R. 
3286, also introduced by Chairman Filner, will shorten the time 
period under Section 1318 of Title 38, United States Code, for 
which a veteran with a service-connected injury must be rated 
continuously totally disabled immediately preceding his or her 
death before the veterans' survivors are eligible for DIC 
benefits from 10 years to 1 year.
    Given the current backlog of pending claims, veterans wait 
years, even decades, to receive their final rating. In the case 
of totally disabled veterans, the resulting benefits may, 
unfortunately, come too late. These delays should not negate 
our responsibilities to these veterans' families, and this 
legislation will ensure that their survivors receive the 
benefits due to them.
    We will also hear testimony on updating the Special Pension 
awarded to Medal of Honor recipients and their spouses. H.R. 
1137, introduced by Mr. Brown, would increase this Special 
Pension to $2,000 per month from $1,104. This pension was last 
adjusted in 2006, but the acts of these extraordinary veterans, 
currently 109 living, resulted in the receipt of our highest 
military honor, and the benefits that we provide to them should 
reflect nothing less.
    Today we will also consider the VA claims processing system 
and address two pieces of legislation that seek to make the 
process more efficient and more effective for our Nation's 
veterans. Ranking Member Lamborn introduced the Veterans Claims 
Processing Innovation Act of 2007, H.R. 3047, which among other 
things seeks to increase the effectiveness of claims filing and 
addresses the VA's work credit system. I look forward to 
hearing more about this bill.
    Lastly, the ``Veterans Quality of Life Study Act of 2007,'' 
H.R. 4084, which I recently introduced, would take an important 
step toward opening the dialog in this Subcommittee to examine 
one of the groundbreaking recommendations set forth by the 
Veterans' Disability Benefits Commission, the Institute of 
Medicine and the President's Commission on Care for America's 
Returning Wounded Warriors regarding quality of life. Answering 
the call of these recommendations, this legislation would 
require the VA to commission a study to determine whether, to 
what extent and how its disability rating system should 
compensate veterans for the loss of quality of life these 
impairments impose on their lives.
    This legislation also seeks to allow substitution of 
claimants, ensuring that eligible family members can take the 
place of a veteran in the event of his or her death in the 
disability claims processing system and not have to begin the 
process all over again.
    Lastly, this bill would expand the categories of reporting 
requirements of the annual report of the U.S. Court of Appeals 
for Veterans Claims (CAVC) that would further assist Congress 
in analyzing and addressing the CAVC's workload and backlog. 
The last provision deals with the concerns the CAVC has raised 
here about space allocation and the proposed construction of a 
Veterans Courthouse and Justice Center.
    During times of war such as our Nation is experiencing 
today, we must simultaneously ensure the proper compensation 
and support for our current veterans while also creating and 
implementing innovative solutions that will allow us to care 
for those who will become veterans, I look forward to hearing 
from the veterans service organizations (VSOs) and the VA's 
representatives on these bills.
    Mr. Hall. Thank you very much, and I now recognize Ranking 
Member Lamborn for his opening statement.
    [The prepared statement of Chairman Hall appears on p. 34.]

             OPENING STATEMENT OF HON. DOUG LAMBORN

    Mr. Lamborn. Thank you, Mr. Chairman, for yielding; and I 
thank you and your staff for holding this hearing today. I 
requested it earlier in the session, and I commend your 
bipartisanship in holding it today.
    This afternoon, we are considering several pieces of 
legislation, all of which are of interest and potential value. 
While I am currently not opposed to any of the proposed 
legislation, I am concerned about the mandatory offsets that 
would be necessary to pass some of these bills under PAYGO 
rules. That being said, I look forward to hearing more about 
these bills from our colleagues and from the other witnesses 
who are with us here today.
    Mr. Chairman, I would like to focus the rest of my 
statement on discussing the bill I introduced, H.R. 3047, the 
``Veterans Claims Processing Innovation Act of 2007.'' This 
bill has the bipartisan support of 32 cosponsors and is 
supported by many of our witnesses here today.
    H.R. 3047 will bring VA's compensation and pension system 
into the 21st century. By increasing accountability and 
leveraging technology at the Veterans Benefits Administration 
(VBA), this bill would improve the accuracy and speed of 
benefits claims processing. Section two of the bill will 
require VA to create a new system for claims processors to 
acquire credit for their work. One way to reduce the disability 
compensation backlog is to ensure that VA adjudicators rate the 
claim correctly the first time.
    While I believe that the system described in section two 
will help achieve this goal, I am open to other suggestions 
that will ensure that VA adjudicators focus on accuracy as well 
as speed. As I have said before, most veterans would rather 
wait a few more days for their claim to be adjudicated 
correctly the first time, than having it to be adjudicated 
quickly and have it be wrong.
    Section three of my bill would require VA to establish a 
pilot program to create a regional Office of the Future where 
all claims would be processed electronically. Mr. Chairman, we 
have heard from numerous witnesses at several hearings during 
this session that processing claims electronically is the way 
of the future and could help prevent future VBA backlogs.
    After several questions and concerns were raised about this 
section, I was happy to work with veterans service 
organizations, and the majority staff, to create the amendment 
in the nature of a substitute for H.R. 3047 that I will offer 
when this bill is marked up. I want to make it clear that this 
provision would only establish a pilot program for electronic 
claims processing to aid VBA employees with their adjudication 
and would not replace them.
    Section four of the bill would allow substitution of family 
members for a deceased veteran for the purposes of acquiring 
accrued benefits for which they are due. I am happy to see that 
a similar provision was included in your bill, Mr. Chairman; 
and I look forward to working with you on this important 
measure.
    The final section of my bill would require VA to use a 
reputable private entity to evaluate its quality assurance and 
training programs. While I understand and support VA's current 
attempt to centralize and improve training, I would like an 
independent organization to verify that they are on the right 
path.
    Mr. Chairman, I am very disappointed in the testimony from 
VA on H.R. 3047. I understand that this bill is not perfect. 
But rather than offering a simple out-of-hand dismissal of the 
bill, I would have appreciated constructive input from them on 
how to perfect this legislation to improve the system.
    My staff has asked VA numerous times for ways that we could 
help them improve this outdated system with little response. 
That is why I am happy to read about the three initiatives in 
their testimony which seem to be moving in this direction.
    I am committed to working with you, Mr. Chairman, with the 
VA and with other stakeholders to perfect legislation that will 
revolutionize the disability compensation system and bring it 
in line with modern technology. I would like to thank the 
veterans service organizations for their support of this 
legislation, and I suggest to my colleagues that they also read 
the testimonies from American Veterans (AMVETS) and Mr. Ron 
Abrams of the National Veterans Legal Services Program (NVLSP) 
who both support H.R. 3047 but were unable to be with us today 
but have submitted for the record.
    Mr. Chairman, I extend my thanks to you and your staff for 
holding this hearing; and I look forward to hearing the 
testimony of our colleagues and the other witnesses today. And 
I yield back.
    Mr. Hall. Thank you, Mr. Lamborn.
    Welcome to the club of those who have had, shall I say, 
negative comments to their legislation submitted by the VA. But 
I am sure that that is not the whole story and that there is a 
constructive side to come, to be revealed.
    Now I would like to recognize the Chairman of the full 
Committee on Veterans' Affairs, Mr. Filner, for remarks on his 
legislation or anything else.

 STATEMENT OF CHAIRMAN BOB FILNER, FULL COMMITTEE ON VETERANS' 
  AFFAIRS, AND A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
                           CALIFORNIA

    Mr. Filner. Thank you, Mr. Chairman.
    I am president of that club, by the way. You are mere 
freshmen. They have been tearing apart my stuff for 15 years.
    Thank you, Mr. Hall, for your leadership of this 
Subcommittee, and Mr. Lamborn, for your energetic work on this. 
Together, you have done an incredible amount of work this year; 
and you are going to do even more in the coming year, I am 
sure. This Subcommittee is going to be at the focus of the 
changes that have been recommended by the Dole-Shalala 
Commission and the Veterans Disability Benefits Commission.
    The President asked the Chairmen and Ranking Members of the 
House and Senate Veterans' Affairs Committees and Armed Service 
Committees to meet with him on these issues last week, and I 
think we all agree that a lot of the Dole-Shalala Commission 
recommendations could be passed very quickly. But the 
recommendation on the wholesale change in the disability system 
needs a much more detailed look. And I think there was general 
agreement to that.
    For example, creating a two-tiered system, as they 
recommend, can lead to other problems. So I think you have to 
carefully consider that with some detail. I am committed to 
them and said to the press today that we would be very 
aggressive between now and, say, February to do the work that 
we have to do to change that system. I think we need to cut 
through the backlog and then move toward that new system, if 
that is the best as quickly as we can, given whatever changes 
we want to make to that.
    I just want to talk to you briefly about two bills that are 
on your agenda today. One, H.R. 3286, is legislation to reduce 
the period of time for which a veteran must be totally disabled 
before the veteran's survivors are eligible for VA benefits at 
the time of the veteran's death.
    Currently, in order for surviving spouses and children to 
be eligible for VA dependency indemnity compensation, known as 
DIC, the veteran who is disabled must have been rated totally 
disabled for at least 5 years immediately preceding the death 
from the date of discharge or other release from active duty, 
and must have been rated totally disabled for at least 10 years 
immediately preceding the death. There are other kinds of 
requirements for former prisoners of war who died after 
September 30, 1999, and on and on. And that is just a summary 
of the legalese that is in the regulations. It is very 
arbitrary, very difficult to understand; and the waiting 
periods can deny benefits and create an unbelievable hardship 
for many widows and children.
    We should be in the business--and I know you will agree--of 
helping veterans and their families and not as being as miserly 
as Scrooge might be. Too often, in our current system, the 
welfare of veterans and their families is ignored and promises 
made to veterans when they sign to serve are forgotten.
    This bill would eliminate the various categories and would 
shorten restricted time limits to 1 year for all deaths 
occurring after the enactment of this bill. The benefits will 
continue to go only to children born before the death of the 
veteran, and that is just to keep in mind as you go through 
H.R. 3286.
    H.R. 3954, the ``Providing Military Honors for Our Nation's 
Heroes Act,'' would provide reimbursement to members of VSOs 
and other approved groups who volunteer to provide funeral 
honors details at the funerals of veterans. I am sure all of us 
have confronted a situation of a funeral without proper honors 
or with volunteers who would like to do it but don't have any 
reimbursement for their car expenses or uniform or ammunition 
or whatever they feel they need; and they want to be at these 
funerals. We ought to help them be there.
    As you know, thousands of servicemembers from World War II 
and the Korean war die each day, and there is not enough 
military to provide a proper set of personal honors for these 
funerals. Some families have to make do just with a CD playing 
``Taps;'' and it is a very sad and outrageous situation when 
that occurs. And I hope that this Congress will take action to 
help provide proper military funeral honors for all families 
who request them.
    Currently, the members of VSOs voluntarily assist the 
military by providing a color guard, pallbearers, a bugler or 
firing party, but the law does not address ceremonies in which 
VSOs render honors without military representation. My bill 
will allow reimbursement to volunteers who have been approved 
by the Secretary of the Department of Veterans Affairs. 
Transportation costs, uniform cleaning costs, ammunition 
incurred in providing such honors details will be reimbursed.
    And a second change in the law will allow reimbursements to 
details that are requested by funeral homes and the VA as well 
as by the Department of Defense (DoD), which is the current 
practice. So we could have volunteers be reimbursed if this 
legislation passes when no military person is a part of the 
honor guard, this increases the number of honor details 
available to our families.
    So these two may be small bills but they will demonstrate 
that we in Congress know and understand the hardships of our 
Nation's veterans and their family members.
    Mr. Chairman, thank you for allowing me to explain these 
bills; and I look forward to working with you to move them 
forward.
    Mr. Hall. Thank you, Mr. Chairman; and I also look forward 
to hearing testimony on your two bills.
    Sitting here in a chair that you usually occupy, I am 
wondering if you have ever used this button that says ``mute 
all'' on it. In our Subcommittee, we haven't had the occasion 
to use the mute all button yet.
    Mr. Filner. It has been used, but you haven't noticed it.
    Mr. Hall. Mr. Brown, would you like to be recognized now to 
tell us about your bill?

  STATEMENT OF HON. HENRY E. BROWN, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Thank you, Mr. Chairman and Ranking Member 
Lamborn. We appreciate the opportunity to come before you, and 
thanks for letting me sit on the dais up here and be here with 
the Chairman.
    I am glad to be with you, Mr. Chairman; and I thank you for 
allowing me to testify today before the Subcommittee on 
Disability Assistance and Memorial Affairs on H.R. 1137, which 
would increase the Medal of Honor Special Pension. This bill, 
which I have worked on with my colleague Mr. Michaud in both 
the 109th and 110th Congress, seeks to further recognize the 
bravery and exceptional service of the recipients of the Medal 
of Honor.
    The Medal of Honor is the highest military declaration 
awarded by the United States of America. It is awarded for 
conspicuous gallantry and intrepidity of the risk of life, 
above and beyond the call of duty, in actual combat against an 
armed enemy force. Since its initial presentation to Private 
Jacob Parrott in 1863, 3,445 Americans have been awarded the 
Medal of Honor.
    Today, there are 109 living recipients of the Medal of 
Honor. The average age of a living recipient is 74 years old, 
and 47 percent of recipients earned their medals more than 50 
years ago while serving in World War II and Korea. The oldest 
living recipient, John W. Finn, is 98 years old. He received 
his medal for action during the attack on Pearl Harbor, 
December 7, 1941. In addition to Mr. Finn, 34 other living 
recipients are World War II veterans.
    Sixty-one living recipients of the Medal of Honor earned 
their medals while serving in Vietnam, including my good friend 
General James Livingston. At this time, I would like to thank 
General Livingston not only for his heroic service to our 
country during the Vietnam War, but also for his tireless work 
on behalf of American veterans in the years since.
    The most recent Medal of Honor was awarded posthumously on 
October 22, 2007, to Lieutenant Michael Murphy, a Navy SEAL 
recognized for his service in Afghanistan. Lieutenant Murphy is 
the second Medal of Honor recipient from the current Iraq and 
Afghanistan conflicts. Marine Corporal Jason L. Dunham was 
posthumously awarded the Medal of Honor for his action in Iraq 
in 2004.
    In recognition of their exceptional service, Medal of Honor 
recipients are entitled to a Special Pension, as first 
authorized by the Congress in 1916. Currently, the 109 living 
recipients receive an inflation-adjusted $1,000 per month. In 
2002, Congress increased the Medal of Honor pension, citing 
evidence that a majority of Medal of Honor recipients live 
solely on Social Security, supplemented by the Medal of Honor 
pension. On a specific note, many recipients travel extensively 
to speak at commemorative and patriotic events, often at their 
own expense, presenting an additional financial strain for 
which VA in 2002 deemed those heroes ought to be compensated.
    My bill, H.R. 1137, will increase the base payment of the 
Medal of Honor Special Pension to $2,000 per month and extend 
the benefits to surviving spouses. This benefit acts as a token 
of appreciation for the selfless leadership, courageous 
activities and extraordinary devotion to duty shown by medal 
recipients.
    And I yield back the balance of my time. Thanks.
    [The prepared statement of Congressman Brown appears on p. 
36.]
    Mr. Hall. Thank you, Mr. Brown.
    We do have a vote that is being called just now, but if we 
could take the time to stay and hear from Ms. Berkley about her 
legislation that would be good.
    Ms. Berkley, you are now recognized.

            OPENING STATEMENT OF HON. SHELLY BERKLEY

    Ms. Berkley. I thank you very much, Mr. Chairman; and I 
will be brief.
    As Veterans Day approaches, we remember and honor the 
sacrifices veterans have made for our Nation. As veterans from 
previous wars age and countless young men and women continue to 
make the ultimate sacrifice, paying for the burial expenses of 
veterans is a growing concern for many families and State 
veterans' cemeteries. The burial benefits provided to our 
Nation's veterans by the Department of Veterans Affairs have 
seriously eroded due to inflation, leaving the States and 
families to supplement the cost.
    My bill, the ``Veterans Burial Benefits Improvement Act,'' 
which is supported by AMVETS, Disabled American Veterans, the 
Veterans of Foreign Wars, the Paralyzed Veterans of America 
(PVA) and the American Legion, will correct this oversight by 
increasing the benefits to cover the same percentage--and let 
me repeat that--the same percentage of veterans burial costs 
that were covered in 1973 when the legislation was first 
passed; and it seems to me in the year 2007, with a war going 
on, the least we could do is as well as our predecessors on the 
VA Committee in 1973.
    America's veterans have stood on the frontlines, protecting 
freedom and safeguarding the values that we hold dear. Those 
veterans deserve our gratitude and respect.
    Instead of living up to our promises made to our men and 
women in uniform, our government sadly has consistently 
shortchanged our vets. By increasing burial benefits and 
helping to ensure a proper and fitting ceremony, this 
legislation restores some of the dignity and respect to the 
status of our veterans.
    Thank you very much.
    Mr. Hall. Thank you, Ms. Berkley.
    And at this time, if I could ask the patience and 
forbearance of our witnesses, we will--and since Mr. Langevin 
is not with us--we will recess and go across the street and 
vote and come back as quickly as we can.
    Ms. Berkley. Mr. Chairman, it might be very difficult for 
me to come back. I don't know what to do, because I want to be 
able to vote in favor of my own legislation as well as 
everybody else's. We are not voting? We are just hearing 
testimony today?
    Mr. Hall. It is a hearing today. Not a markup.
    Ms. Berkley. We are not sending--what are we waiting for?
    Mr. Hall. Well, we are going to hear some expert witnesses 
and testimony shortly. But you can submit questions in writing, 
if you wish.
    Ms. Berkley. I will do my best to get here. But, if not, I 
will indeed. But I will be voting in favor at the appropriate 
time for each of these legislation.
    Mr. Hall. Thank you all. We stand in recess.
    [Recess.]
    Mr. Hall. Thank you for your patience, and the Subcommittee 
will resume its hearing on multiple pieces of legislation.
    We have been informed that, unfortunately, Mr. Langevin 
will not be able to join us, so his written testimony will be 
entered into the record.
    [The statement of Mr. Langevin appears on p. 52.]
    Mr. Hall. Therefore, we will now go to Panel 2, and I will 
invite the Panel 2 witnesses to come to the witness table, 
please: Richard Daley, Associate Legislation Director for the 
Paralyzed Veterans of America; and Steve Smithson, Deputy 
Director of Veterans Affairs and Rehabilitation Commission for 
the American Legion.
    Gentlemen, thank you for joining us; and thank you for your 
patience with our unpredictable schedule.
    Mr. Daley, you are now recognized for 5 minutes.

 STATEMENTS OF RICHARD DALEY, ASSOCIATE LEGISLATION DIRECTOR, 
   PARALYZED VETERANS OF AMERICA; AND STEVE SMITHSON, DEPUTY 
   DIRECTOR, VETERANS AFFAIRS AND REHABILITATION COMMISSION, 
                        AMERICAN LEGION

                   STATEMENT OF RICHARD DALEY

    Mr. Daley. Thank you.
    Chairman Hall, Ranking Member Lamborn, PVA would like to 
thank you for the opportunity to testify today on the several 
pieces of important legislation.
    To start with, H.R. 1137, the Medal of Honor Special 
Pension, PVA supports H.R. 1137, a bill that would increase the 
Medal of Honor Special Pension from the current $1,000 a month 
to $2,000 a month. As we have heard already from several 
sources, there are only 109 living recipients of the 
prestigious award, dating back to the Second World War. PVA 
supports this increase of this Special Pension for these heroic 
Americans that have served so gallantly at one time.
    We generally support H.R. 3047, the ``Veterans Claims 
Processing Innovation Act of 2007.''
    Section two of the bill would establish a process and 
places emphasis on the accuracy of the claim completed. If the 
VA regional office cannot receive credit for the claim until it 
is finally decided, we believe that this would create an 
incentive to process the claim correctly the first time.
    Section three of the bill involves electronic processing of 
claims. If software is available or can be developed to help 
with the processing of claims, we would support a pilot program 
to test the efficiency and accuracy of this program. The 
legislation suggests that software would somehow replace the 
human ability to review and evaluate evidence in order to 
render a final evaluation. PVA does not believe that software 
exists that can replace the human element.
    Section three requires the VA to electronically scan all 
files created by or submitted to such office. We believe that 
requiring the VA to retroactively scan in claims would create 
an additional burden. Perhaps this new system should be tested 
on new claims only.
    Section four of this bill would treat the beneficiaries of 
the veterans' accrued benefits as a claimant for the purpose of 
completing the submission of the claim. PVA supports this 
section.
    Section five of the bill requires evaluation of training 
and assessment programs for employees of the Veterans Benefits 
Administration. The VA has taken significant measures to 
standardize and improve training for the Veterans Benefits 
Administration employees. They currently have rigorous online 
training available for the veterans service representatives, 
and they are rating veterans service representatives throughout 
the system. We agree that the VA must continue to improve its 
quality assessments to their systematic technical accuracy 
review program and other programs to ensure that the right 
decision is made the first time. PVA supports section five of 
this bill.
    H.R. 3749, the ``Veterans Burial Benefits Improvement Act 
of 2007.'' PVA supports the increase in the burial payments, 
which are in accordance with the recommendations of the 
Independent Budget, the comprehensive budget policy document 
created by veterans for veterans.
    PVA supports H.R. 3286. This bill would reduce the period 
of time for which veterans must be totally disabled for the 
purpose of benefits provided by the Secretary of Veterans 
Affairs for survivors of certain veterans rated totally 
disabled at the time of death. It would reduce the required 
time for a veteran's totally disabled rating from the current 
10-year period to 1 year.
    H.R. 3415. PVA supports H.R. 3415, a bill to authorize 
memorial markers in a national cemetery for the purpose of 
commemorating servicemembers and other persons whose remains 
are interred in the American Battle Monuments Commission 
cemetery system.
    H.R. 3954, PVA supports H.R. 3954, the ``Providing Military 
Honors for our Nation's Heroes Act.''
    H.R. 4084, the ``Veterans Quality of Life Study Act of 
2007.'' PVA would like to submit our comments on this 
legislation after we have time to further review it.
    Chairman Hall and Ranking Member Lamborn, that completes my 
testimony. I would be available to answer any questions you may 
have.
    [The prepared statement of Mr. Daley appears on p. 37.]
    Mr. Hall. Thank you, Mr. Daley.
    Mr. Hall. Mr. Smithson, you are now recognized. Your 
written statement is in the record, and you have 5 minutes.

                  STATEMENT OF STEVE SMITHSON

    Mr. Smithson. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. The American Legion appreciates the 
opportunity to present our views on the bills being considered 
by the Subcommittee today.
    We have provided written testimony addressing all seven 
bills, but my oral remarks this afternoon will be limited to 
H.R. 3047 and H.R. 4084.
    Regarding H.R. 3047, the American Legion has been a vocal 
critic of the end product work measurement system which 
emphasizes and awards quantity of work produced, rather than 
quality, currently used by the Department of Veterans Affairs. 
The American Legion has testified before the Subcommittee in 
the past, advocating for the very changes proposed in this 
legislation, namely allowing work credit to be given only when 
the Board of Veterans' Appeals (BVA) has issued a final 
decision or the claimant has not filed an appeal within the 
one-year statutory appeal period. We are confident that 
removing the incentive for producing poor quality decisions by 
rewarding quality of work rather than quantity will result in 
an increase of accurate decisions.
    We also support allowing a deceased veteran's survivor to 
continue the pending claim upon the veteran's death, rather 
than VA terminating the claim and requiring the survivor to 
file a separate claim for accrued benefits as is the current 
practice. Not only does the current practice cause duplication 
of effort and adds to the existing claims backlog by requiring 
a new claim to be filed, it poses an arbitrary one-year 
deadline for the filing of such claim. This deadline is often 
missed by grief-stricken family members who were either unaware 
of the deadline or are not emotionally ready to go forward with 
the claims process within a year of their loved one's death.
    The American Legion fully supports the commonsense approach 
that allows VA to avoid reinventing the wheel by not having to 
start over from scratch with a new claim and, at the same time, 
provides the deceased veteran's survivor with a more user-
friendly and less complicated claims process.
    The American Legion also agrees with having a private 
entity to evaluate VA's quality assurance program. Receiving 
input on VA's training and performance assessment programs from 
an independent entity would undoubtedly provide new insight on 
how to enhance the current process.
    Regarding proposed section four, Electronic Processing of 
Claims for Benefits Administered by the Secretary of Veterans 
Affairs, the American Legion welcomes innovative ideas 
regarding the processing of benefits claims and does not oppose 
the electronic claims processing. We were, however, initially 
concerned that this portion of legislation appeared to be 
calling for a centralized or consolidated processing of such 
claims, a concept the American Legion has generally opposed. It 
is now our understanding that the intent of this portion of the 
legislation is to establish a pilot program, and it is not 
intended to create a centralized VA claims processing system. 
It is also our understanding that this point will be clarified 
with the appropriate amendment language during the markup 
process. This being the case, the American Legion is not 
opposed to the creation of a pilot program for electronic 
claims processing.
    Now moving on to H.R. 4084. As this legislation was not 
available at the time my written remarks were prepared, I will 
address it at this time.
    The American Legion generally supports the numerous 
provisions of this draft legislation. However, regarding the 
section two study on Department of Veterans Affairs Schedule 
for Rating Disabilities, we note that the Institute of Medicine 
(IOM) conducted a study on the VA rating schedule for the 
Veterans Disability Benefits Commission and that study did 
address quality of life factors in disability ratings. If an 
additional study is necessary, as proposed in this legislation, 
we ask that IOM's previous study be used as a base and the new 
study focus on areas that need to be expanded on or require 
additional information and clarity.
    Mr. Chairman, that concludes my testimony. I would be happy 
to answer any questions you or Members of the Subcommittee may 
have.
    [The prepared statement of Mr. Smithson appears on p. 38.]
    Mr. Hall. Thank you, Mr. Smithson and Mr. Daley both, for 
your comments.
    I have a question regarding both of your comments on the 
information technology (IT) component of H.R. 3047.
    A couple weeks ago, on my way back from Iraq, the 
delegation I was with stopped in Landstuhl, Germany, and 
visited the hospital where our servicemen and women who are 
recovering stay, and we spoke to the Colonel who was Director 
of the hospital. He was telling us that, whereas at the 
beginning of the military operation in Iraq, soldiers would 
come to them with their medical records written in magic marker 
on their foreheads when they were wounded, what drugs they had 
been given in the helicopter or on the plane, what their 
treatment had been thus far, that now it has advanced to an 
electronic record which was being sent to them with each 
patient.
    So the field treatment was surrounded by or had added to it 
the treatment that was given at Balad and then the treatments 
given on the plane to Germany, and they added there in 
Landstuhl a layer of what treatment and what medications were 
given, what therapies, what surgery, et cetera, and the whole 
thing was sent back with the serviceman or woman to the United 
States, whether they were going to Walter Reed or another DoD 
facility. He was under the impression that this was already 
starting in December to be handed off to the VA so that they 
would receive the entire record intact, which certainly would 
make the process of figuring out a disability or a claim, not 
to mention the service-relatedness of it, easier to do. And, of 
course, many of us have been looking for that kind of 
electronic hand-off.
    Have either of you heard anything to that effect? Or have 
any opinion about what would be required for that to happen?
    Mr. Smithson. Obviously, we feel the technology is there to 
do a better job than is currently being done with the records 
process. However--and VA in their testimony noted improvements 
that are being made in the electronics claims processing and 
things like that. However, we are seeing problems occur, 
especially with records, paper records. There is still an 
issue. So I think there is a lot that has been done to make 
improvements. And you mentioned that example, but we still 
think there is a long way to go to improve the process. It is 
not quite there yet.
    Mr. Hall. I would agree with your comment that software 
will never completely replace the human analysis of a 
situation, medical or otherwise.
    Mr. Daley, in considering H.R. 3047, on what basis does--I 
wanted to ask you, on what basis does PVA contend that the 
software does not exist yet? And exactly at what point does 
subjectivity kick in and inconsistencies in the rating system 
become a problem? In other words, how much of the process do 
you think could be handled with IT?
    Mr. Daley. Well, the software, it doesn't exist. They do 
handle some claims electronically, but they can't handle 
everything electronically. The software is not out there yet 
from what I understand.
    About the issue of the human element, if a veteran was 
claiming that he has tremendous back pains that he can hardly 
live with and the evaluator is taking notes and maybe the 
veteran bends over to tie his shoe or something, the computer 
can't pick that up. But that evaluator puts that in the notes, 
that it doesn't seem to be, as serious as he claims. And the 
scale of pain? You would have to create a scale of pain from 1 
to 10, which doesn't exist in the VA medical system now. How 
bad is that pain? So there is just some areas that the humans 
will have to be involved in using their judgment.
    Mr. Hall. Thank you.
    If I could jump to H.R. 3496 and ask you first, Mr. Daley, 
and then Mr. Smithson, what do you think should be the standard 
for reimbursing volunteers? And how would this function be 
funded? And is it not already the mission of several VSOs to 
provide funeral honors?
    Mr. Daley. I haven't thought about the amount. There are 
some State programs out there that I am aware of that do 
provide reimbursement now. If we did some research, contacting 
those States and say, how much does it cost when you get the 10 
guys together, sometimes there is a trip involved, and it 
involves a lunch, and dry cleaning of the clothes. How much 
does it cost?
    There is a figure available. I don't know what it is. We 
certainly support your reimbursing these people. I said in my 
written testimony, most of the time these people are retired, 
old veterans. Some of them are still World War II veterans out 
there doing that. They really can't afford to drive 30, 40 
miles and have their nice jacket dry cleaned every week to 
perform this. But they do it anyway because they do it for a 
fellow veteran.
    Mr. Hall. Thank you.
    Mr. Smithson.
    Mr. Smithson. There are, obviously, already provisions 
within the DoD for reimbursement for volunteers for funeral 
honors. So we would have to look at how this legislation would 
complement that to ensure that there would be no duplication.
    However, to address the VSO's obligation, obviously 
speaking for the American Legion, providing funeral honors to 
veterans and deceased military members is something that we are 
honored to do. We take great pride in it. However, 
realistically, our posts and our facilities sometimes cover 
large areas and need to travel great distances just to cover 
these areas to fill in the gaps. So, obviously, reimbursement 
for those activities is crucial, especially for the posts in 
the regions that don't have a lot of money to provide that 
honor.
    Mr. Hall. Good point. And since there are only two of us 
members up here, I will just take the liberty of asking another 
question or two and then offer Mr. Lamborn extra time as well 
if he needs it.
    I wanted to ask you again, Mr. Smithson, what the basis is 
for the American Legion's contention that the BVA's work 
measurement system emphasizes quick action at the expense of 
accurate decision making. Is this based on an American Legion 
study or site visits focused on the end product work 
measurement system?
    Mr. Smithson. A lot of it is based on all our site visits. 
The American Legion has a quality review team that has been 
operating for the last 10 or 12 years. We visited over 40 
regional offices during that period of time. We go into an 
office, we meet with the Director, the senior staff service 
center manager, and we spend the majority of time reviewing 
cases, looking for errors, things like that.
    We also interview VA personnel, raters, developers, all key 
personnel within the regional office, and we often hear from 
these personnel that there is a tremendous amount of pressure--
and, obviously, there is a great backlog of cases that have to 
be put out, but there is a tremendous amount of pressure to get 
cases out.
    We often hear anecdotally from people that they will--when 
a case comes in, it is rated. They are going to rate it, but 
the examination, for example, is not accurate. So proper 
procedure would be to send it back, get the point clarified, 
have a new exam done, whatever it calls for. But oftentimes 
they are pressured to make a decision because they have to get 
that case out. So they prematurely will, you know, adjudicate 
the claim, deny it because the exam wasn't accurate, for 
example.
    That claim comes back. The VSO files an Notices of 
Disagreement or asks for reconsideration. They rate the case 
again. They get an end product for doing it prematurely. They 
rate the case again. This time, they get the exam clarified or 
whatever needed to be done and rerate it, and they grant the 
claim this time. They get another end product. So they get two 
end products. Whereas, if they would have done it right the 
first time, they would have only gotten one end product. And we 
hear that the reason that happens is because they are pressured 
to get these cases out. And the way the system is set up, it 
does seem to reward quantity over the quality. End results are 
premature adjudications and other types of errors.
    Mr. Hall. Good points there. And in spite of all that, or 
in addition to that, would you agree that timeliness should be 
a performance measure along with accuracy?
    Mr. Smithson. Obviously, timeliness is a concern. I think 
we need to--in the backlog of the concern, I think we need to 
reach a good middle ground where timeliness and quality of work 
is also factored in, not just the putting out the quantity in 
work. So I think a compromise somewhere in the middle needs to 
be achieved.
    Mr. Hall. Okay. Lastly, I just wanted to ask a general 
question and, obviously, a discussion concerning the Dole-
Shalala Report kicked it off in a big way. Have either of your 
organizations, either the American Legion or PVA, had at least 
preliminary discussions about the concept of quality of life 
reimbursement?
    It seems to me that most of what we have been focusing on 
is caretaking, loss of income, medical treatment, providing for 
rehabilitation of homes, for mobility, for practical measures. 
But some measurement of what--especially a young person's life 
will consist of if there is a debilitating injury for which 
they will suffer the effects of for the rest of their life.
    Obviously, it is a big question that is being raised and a 
big expense that goes with it. But H.R. 4084 is attempting to, 
among other things, study that. And I am just curious if your 
organizations have kicked this idea around.
    Mr. Daley?
    Mr. Daley. We haven't formulated an idea yet. Quality of 
life is such a subjective area. I went to PVA's research 
department and asked, what can you tell me about quality of 
life for some of the dramatically injured veterans? And our 
Director of Research he gave me a stack of five books all 
dealing with quality of life. I have some homework to do to get 
up on the issue of quality of life.
    But certainly, the Dole-Shalala Commission said as much as 
25 percent should be added to their monthly payment for quality 
of life. In some cases, it probably does justify that amount. 
We will give you more details as we study quality of life 
further.
    Mr. Hall. Thank you, Mr. Daley.
    Mr. Smithson. Obviously, quality of life is a concern, and 
there are great challenges involved with the determining how to 
compensate for quality of life. The Dole-Shalala Commission 
makes the recommendations which would create a separate 
payment. The Veterans Disability Benefits Commission also 
addressed quality of life issues. They contracted with the 
Institute of Medicine to study the entire VA rating schedule, 
and they also looked at quality of life aspects.
    We think there is a good base there, that any study 
produced by this legislation, H.R. 4084 could use that as a 
base and then focus on areas that need to be expanded. 
Obviously, it is not something I think--it is going to require 
more study to get a grasp on.
    Mr. Hall. That is an understatement. I believe one example 
recently that involved quality of life assessment was 
pertaining to survivors and families of 9/11 in terms of their 
compensation. But, nonetheless, we obviously have a lot of work 
to do to quantify that.
    And now I would like to recognize Mr. Lamborn for his 
questions.
    Mr. Lamborn. Thank you, Mr. Chairman.
    For both of you, I just wanted to make it clear that the 
amendment in the nature of a substitute would make it clear 
that the electronically based claims processing system would be 
for where there was not a need for much or any subjectivity.
    One example would be in the case of a Vietnam veteran. It 
is assumed, under the law, that diabetes is covered because 
there had to have been exposure to Agent Orange. So, that is an 
example where no subjectivity was needed.
    So, with that in mind, do you see a benefit to developing 
the software where there is little or no subjectivity that 
would be needed to free up those people for where subjectivity 
is needed or is that unnecessary in your opinion? Either one of 
you.
    Mr. Smithson. I think it would help in those areas, like 
you said, that do not--that are fairly objective and clear cut. 
I think they could free up resources for the areas that are 
more subjective, and we wouldn't have a problem with that.
    Like everyone else, I think we have concerns about taking 
the human element completely out of the picture, which from our 
understanding, talking with your staff, that is not going to 
happen, and that is not the aim of this legislation. So, based 
on what you said, we wouldn't have a problem with that.
    Mr. Lamborn. Okay. Do you think it is helpful for this 
Subcommittee to direct the VA to contract with an independent 
or outside agency or group of some kind to certify and review 
training and quality review?
    Mr. Smithson. Yes. We think it would be helpful to have 
fresh eyes looking at the VA system in those areas. We have 
been critical of some of those areas, in quality assurance, in 
the training program; and VA, obviously, has their own internal 
review processes in place. But we think a fresh set of eyes, an 
independent set of eyes, would certainly not hurt and would 
most likely help the situation.
    Mr. Lamborn. Okay. Mr. Daley, did you want to add anything?
    Mr. Daley. Sure. As Mr. Smithson said, a fresh set of eyes.
    In my comments, I mentioned the training that the VA has 
rolled out. They have developed online training, and that is a 
brand-new program, for their service officers. It is supposed 
to be the most up-to-date and it takes into consideration a lot 
of medical issues. Before that, the training was on a regional 
basis and an office basis, and it wasn't nationalized. Their 
new training system, online system, is supposed to be the 
greatest thing. And it is brand new. So we need to give it a 
chance and let it get, circulated and used. It is standardized, 
and everybody is going to get the same message, the same way. 
Certainly, VA needs to evaluate and update some of the 
training. Constantly update, because they are running into new 
situations with the current conflict that the VA hasn't dealt 
with in the past.
    Mr. Lamborn. Now a related question. Would you be in favor 
of competency testing for Rating Veterans Service 
Representatives (RVSRs) and Veterans Service Representatives 
(VSRs) to improve accuracy and quality?
    Mr. Smithson. We have testified on that previously, and it 
is our understanding that VA is currently in the process of 
testing VSRs for competency and efficiency. I don't believe 
they conducted any test this year. However, their goal was to 
do two tests a year, and they are in the process of developing 
a test for the RVSRs and the Decision Review Officers (DROs).
    Our concern is that--obviously, with the tests that have 
been conducted for the VSR so far, there is still a very low 
pass rate. And, it is also our understanding that the testing 
is not a condition for employment, for keeping that job. It is 
optional. They can choose to test or not. Of course, if they 
don't test, they won't be easily promoted. They are using it 
mainly for promotion basis.
    And, we feel that any testing that is conducted, whether it 
be for VSRs or RVSRs or DROs, be mandatory and be a condition 
of employment and individuals that fail be given remedial 
training and other actions to correct their performance; and 
that is not being done right now.
    Mr. Lamborn. Now in a similar vein, what emphasis is 
currently being placed on the quality of a ratings decision 
versus the quantity of rating decisions? Or that a rating 
decision was made, period.
    Mr. Smithson. We think, from our observations of the 
system, looking at cases, talking to people in the VA system at 
the regional office level, doing our quality reviews, that 
there has been a greater emphasis, I think placed on quality of 
work. But, there is still--I think the greater emphasis is 
still on quantity over quality, and we still see that as a 
problem.
    Mr. Lamborn. Now a slightly different question. If a 
survivor were to step in and take over a pending claim, should 
that person be able to introduce new evidence? Or should it 
stick to the claim as it was at the time that the original 
claimant passed away?
    Mr. Smithson. Basically, we do not have a problem with the 
person, the eligible dependent submitting additional evidence 
with the claim. We feel that allowing that, allowing that 
individual to advance that claim upon--the pending claim upon 
the veteran's death is a very good thing in that, under the 
current process, you have 1 year to file accrued benefits 
claim. A lot of times the deadline is missed, as I mentioned in 
my oral remarks, because people are grief stricken, they don't 
know the process, so they miss the date. Allowing them to 
advance the claim automatically without having to file a 
separate claim, it gets away from reinventing the wheel, and it 
allows for a more streamlined process and is obviously more 
user friendly. So we agree with that.
    Mr. Lamborn. Okay. Thank you for your testimony and for 
answering these questions.
    Mr. Hall. Mr. Smithson and Mr. Daley, thank you very much 
for your testimony and your dedication to our Nation's 
veterans. You are now excused.
    We will invite our third panel to the witness table: 
Bradley G. Mayes, Director of Compensation and Pension Service 
for the Veterans Benefits Administration, U.S. Department of 
Veterans Affairs; accompanied by Richard J. Hipolit, Assistant 
General Counsel for U.S. Department of Veterans Affairs; Dr. 
Paul Tibbits, Deputy Chief Information Officer at the Office of 
Enterprise Development, U.S. Department of Veterans Affairs; 
and David K. Schettler, Director of Communications Management 
Service for National Cemetery Administration, U.S. Department 
of Veterans Affairs.
    Thank you all for your patience and for being with us today 
to offer your testimony, and your written testimony is entered 
in the record.
    Mr. Mayes, you are now recognized for 5 minutes.

   STATEMENT OF BRADLEY G. MAYES, DIRECTOR, COMPENSATION AND 
    PENSION SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
   DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY RICHARD J. 
HIPOLIT, ASSISTANT GENERAL COUNSEL, U.S. DEPARTMENT OF VETERANS 
AFFAIRS; PAUL TIBBITS, M.D., DEPUTY CHIEF INFORMATION OFFICER, 
  OFFICE OF ENTERPRISE DEVELOPMENT, OFFICE OF INFORMATION AND 
 TECHNOLOGY, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND DAVID K. 
    SCHETTLER, DIRECTOR, COMMUNICATIONS MANAGEMENT SERVICE, 
 NATIONAL CEMETERY ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Mayes. Chairman Hall, Ranking Member Lamborn, thank you 
for giving me the opportunity to be here today to discuss a 
number of bills of great interest to veterans.
    I will start with H.R. 1137, this bill would increase the 
monthly rate of the Medal of Honor Special Pension from $1,000 
to $2,000 and would require VA to pay the Special Pension to 
the surviving spouse of a person who was awarded a Medal of 
Honor. VA does not oppose H.R. 1137 subject to Congress finding 
offsets for the increased cost. The benefit cost is estimated 
to be $11.9 million during the first year, $58.8 million for 5 
years, and $113 million over 10 years.
    The next bill, H.R. 3047, the ``Veterans Claims Processing 
and Innovation Act of 2007,'' would require VA to establish a 
work credit system for evaluating regional offices (ROs). Under 
the system, ROs would receive work credit for a claim only 
after the appellate period for the claim has expired or the 
Board of Veterans Appeals issues a final decision on the claim.
    Most VA claims are resolved well within 1 year, and in 2007 
only 12 percent of claims resulted in the filing of a notice of 
disagreement. Substantive appeals were filed in only 5 percent 
of cases. Yet, the bill would require VA to wait 1 year before 
assigning credit to these cases. It would make it extremely 
difficult to monitor both VA's progress and the magnitude of 
the workload still awaiting action, and it would fundamentally 
alter our basic management systems and principles.
    Section three would require VA to develop and maintain a 
claims processing system employing artificial intelligence. VA 
would be required to maintain one RO that would exclusively 
process claims electronically under this system. We don't 
believe this section is necessary. We do believe that the use 
of rules-based and decision-support technologies can be greatly 
expanded in the near term to automate and streamline the claims 
process, and we are working aggressively toward that end.
    Specific efforts are currently underway, and we are 
exploring these. They include expansion of the use of 
electronic records and image management technology and 
investment in the development of electronic claims processing 
assistance tools. In fact, a recently published request for 
information has yielded a variety of potential products that 
might meet our needs in this area. And, finally, development of 
electronic processes for submission of applications for VA 
benefits. This will facilitate the receipt of electronic claim 
information and provide the initial data load into the claims 
processing systems.
    And I might add that VA has received $20 million in a 
supplemental appropriations to support the initiatives 
described above, and we appreciate that. We believe that we 
will be in a position to execute necessary contracts to support 
implementation of our plan over the course of the next 12 
months, and we will be able to report on our progress in 
approximately 1 year.
    Section four would require VA, in the case where a veteran 
claimant dies before completing the submission of a claim, to 
treat as a claimant the person who would receive any accrued 
benefits due to the veteran under 38 U.S.C. 5121.
    We do not support the proposal as drafted because the 
reference to completing the submission of the claim is 
ambiguous and could be construed to apply to cases where there 
was no claim pending before VA when the veteran died. Of 
course, that would enable a survivor to advance a claim 
potentially decades after the veteran's death, which the 
veteran did not properly present to VA before his or her death. 
We would not object to legislation that will allow the addition 
of evidence to a claim that was pending before VA prior to the 
veteran's death, even if the claim had not been fully developed 
or adjudicated when the veteran died.
    H.R. 3249 would increase several monetary burial benefits 
provided by VA. We defer taking a position on this legislation 
until we have had an opportunity to review the results of our 
memorial benefits program evaluation that is currently under 
way, and we expect this program evaluation to be completed by 
April 2008. We estimate benefit costs of this bill as drafted 
would be $2 billion over 10 years.
    H.R. 3286 would reduce from 10 years to 1 year the period 
of time during which a veteran must have been rated totally 
disabled due to service-connected disability. We do not oppose 
this bill, subject to offsetting savings and subject to one 
amendment. We believe the bill should be amended to require the 
veteran's total evaluation also be rated as permanent.
    H.R. 3415 would make servicemembers, and others interred at 
American Battle Monuments Commission cemeteries, eligible for 
placement of a memorial marker in a stateside cemetery. We 
support enactment of this bill. However, we recommend 
consultation with the American Battle Monuments Commission 
regarding its views on this bill and the coordination between 
the agencies that this bill would require.
    And finally, H.R. 3954 would authorize VA to reimburse a 
member of a veterans' service organization or other 
organization approved by VA for appropriate transportation and 
other expenses incurred in connection with the voluntary 
provision of funeral honors detail at the funeral of a veteran, 
including funeral honors detail requested by a funeral home.
    We are concerned that reimbursement under this bill may 
duplicate expenses paid by the Department of Defense. DoD is 
required by 10 U.S.C. 1491(a) to provide, upon request, a 
funeral honors detail at the funeral of any veteran. As such, 
DoD is currently authorized by statute to reimburse persons who 
participate in a funeral honors detail. And so, we don't 
support H.R. 3954. This concludes my statement, Mr. Chairman, 
and I would be happy now to entertain any questions you or the 
other Members of the Subcommittee may have.
    [The prepared statement of Mr. Mayes appears on p. 41.]
    Mr. Hall. Thank you very much for your testimony. First of 
all, a little bit off the--well, it is sort of on the topic of 
H.R. 3047 because it has to do with the IT capabilities of the 
Veterans Administration and the smooth acquisition or hand off 
of information from DoD. Are you aware of this rumor that I 
heard in Landstuhl that veterans coming back will, starting in 
December, be able to have their records transferred from DoD to 
the Veterans Administration electronically?
    Mr. Mayes. I am aware that we are working very closely with 
DoD as part of the entire review of the disability evaluation 
system. And in fact, Deputy Secretary Mansfield and Deputy 
Secretary England are coordinating that effort. They have what 
is called an OIPT, an Overarching Integrated Project Team, and 
on that team is the Under Secretary for Benefits, I believe the 
Under Secretary for Health, and a variety of members. These 
groups are getting together. And in fact, Admiral Cooper 
commented that he has been over at the Pentagon more now than 
when he was working for the Navy over there. And I believe they 
are working on this data exchange. We have Dr. Tibbits here 
from our Office of Information Technology. He is very involved 
in that. I am going to defer to him.
    Mr. Hall. Please.
    Dr. Tibbits?
    Dr. Tibbits. Yes, sir, Mr. Chairman, thank you so much for 
the opportunity to be here today. The way that process is set 
up, the Senior Oversight Committee is chaired by the Deputy 
Secretaries of both Departments. The Under Secretaries do sit 
on that Committee, as Brad, as Mr. Mayes alluded to. There are 
various lines of action that are set up under that. One of them 
is for information technology. I happen to be the co-lead of 
that information technology subgroup, if you want to call it 
that. My co-chair is the Principal Deputy Assistant Secretary 
of Defense for Health Affairs, Dr. Steve Jones. Our express 
purpose of that entire apparatus is to focus on VA-DoD 
collaboration. Our focus is the IT aspect of that. And indeed, 
we have plans afoot and activities under way, by the way, I 
would also add, to enhance the exchange of information between 
VA and DoD. I don't have the schedule of all the events here in 
front of me. But yes, one of the pieces--it is true, that one 
of the pieces of information is the exchange--one of the pieces 
addressed in the plan is the clinical information necessary to 
deliver healthcare, yes. And from that, there would be--much of 
that would be relevant to claims processing. Another piece of 
that is the piece of that information that originates in 
theater, yes. And the Department of Defense is in fact 
actively--and they would have to describe their programs to you 
in detail. I don't know them in detail. But yes, they are 
actively engaged in making the connections within the 
Department of Defense to capture that theater information, send 
it back to the continental United States, if you will and then, 
within the continental United States, through the systems that 
we connect to, transfer that information to us, yes. Those 
transfers involve both what we call structured computable data, 
i.e. data a computer can recognize, unstructured data which a 
human being has to read on the screen but the computer can't 
compute, and images. To summarize all that, we have agreed, the 
VA and DoD have agreed to synthesize together all the ongoing 
activities and those that are needed to fill the gap into a 
plan addressing information interoperability, which should be 
available in the March timeframe of 2008. So that would be the 
synthesis and the final lay down of the current activities 
combined with the future activities that are necessary to meet 
active-duty servicemember and veterans needs by way of 
information exchange.
    Mr. Hall. Thank you, Dr. Tibbits.
    That is really good news that many of us have been asking 
for and looking forward to. Mr. Mayes, you enumerated several 
reasons why the VA is opposed to section 2 of H.R. 3047 by 
stating that work credit is undefined and unclear how it would 
be relevant to funding and would cause a delay in feedback to 
Regional Office Directors. However, it appears that the 
American Legion and the NVLSP think that the opposite is true. 
They have submitted statements that describe the end product 
system as a poor management tool, and see it as too focused on 
productivity rather than quality. They have documented that 56 
percent of all appeals were reversed or remanded, and 63 
percent of court decisions were reversed, and attribute these 
egregious errors to premature adjudications. If your system is 
working and should not be changed, as you described, how do you 
explain this high reversal rate and the concerns raised by the 
veterans community?
    Mr. Mayes. Okay. Let me start by saying that the system 
that we use, the end product control system, is really a result 
of our legacy Benefits Delivery (BDN) system. In other words, 
back in the mid-seventies, we created a payment system. And we 
have added to that payment system and created an electronic 
identifier for a claim that tracks the claim through its life 
until we make a decision for a veteran. We know that legacy 
system needs to be replaced, and we are in the process of doing 
that with VETSNET, which will be much more robust and give us 
more ability, rather than having an end product code, a three-
digit code, to know whether a claim is a reopened claim for 
benefits or an original claim. We are moving already toward a 
more robust system that will allow us to track our claims. As 
for the overturn rate, of all of the decisions that we make 
that require a rating decision--and there were over 840,000 of 
them in this past fiscal year--really only 12 percent of those 
do veterans disagree with. And of that 12 percent, only 5 
percent end up filing formal appeals. So, in most cases, we 
make a decision, and we notify the claimant, and that is pretty 
much it until they file a new claim down the road.
    But in 12 percent of claims, they file a notice of 
disagreement. They say, ``I disagree with the decision that you 
made.'' And it is at that point that we relook at the 
decision--we have de novo review authority to do that--and 
determine, did we make a mistake or not? Did we apply the rules 
properly? If we did not, then we overturn that decision right 
there. If we think we applied the rules properly, then we 
notify the claimant and the claimant has the opportunity, and 
this is key here, to submit new evidence before we certify the 
case to the Board of Veterans Appeals. Frequently, after a 
veteran has filed a notice of disagreement, we do get new 
evidence, or there is a new exam or a new opinion. And so the 
decision that is rendered down the road in the appellate 
process is not necessarily based on all of the facts and 
evidence that were in place at the time the agency of original 
jurisdiction made a decision. And that is a big difference, 
this appellate process, as opposed to other appellate processes 
in our society. What happens is, we notify the claimant we 
think we are right; the veteran doesn't think we are right. 
Maybe new evidence comes in or not. We certify it to BVA. They 
have a backlog there. Sometimes there is a significant amount 
of time that elapses. We need a more contemporaneous exam. It 
goes back to the regional office. We order a new exam. It goes 
back to the Board of Veterans Appeals. My point here is that I 
think the data that you cited there, I don't think you can make 
the correlation that because 50 percent of the cases were 
remanded that they were all wrong. There was something else 
that was needed likely. Maybe it was an exam. And in most of 
the cases, it is to get a new exam.
    Mr. Hall. Thank you. You know, there seems to be a 
discrepancy between what we as individual Members of Congress 
experience dealing with veterans in our districts and the 
people who come to us asking for help with claims that they 
feel have not been accurately or satisfactorily resolved and 
the statistics that we hear when we hold these hearings. And I 
wonder if that is perhaps due to the possibility that some 
veterans choose to continue pursuing a different outcome 
depending upon whether they can decipher the VA's letter 
denying their claim or whether they get discouraged. I know 
that the same thing happens in the private health insurance 
industry, where I am told by appeals administrators for 
hospitals that approximately 50 percent of all insurance 
claims, private insurance claims this is, are denied as a 
matter of course by health maintenance organizations. They have 
figured out, there are actuaries who have figured out that 
something approaching half of them will walk away because they 
are older, less educated, less literate, less inclined to 
fight. Some people have a disposition that is more accepting or 
come from a generation that is more accepting of authority and 
of people who they look up to as experts. So I would say my 
parents might fall into this category. It was like if the 
doctor says, oh, no, you are not covered, they go, oh, gee I 
will write a check myself. Whereas my generation and certainly, 
younger ones have learned that sometimes, one needs to stand up 
for one's self. So I am just trying to figure out why. Because 
it seems that what we hear in the district anecdotally is--and 
I have heard this from other Members--that it seems to be more 
problematic than the 12 percent that you are citing.
    I wanted to ask you, you noted in your statement that the 
VA is engaged in an aggressive planning effort to identify 
opportunities for using technology to improve efficiencies in 
claims processing. In March of 2007, the U.S. Government 
Accountability Office (GAO) reported on the backlog and 
inaccurate decisions, finding VA to be ``limited in its ability 
to make and sustain significant claims processing performance 
improvements'' and recommended changes to program design and 
consolidation into fewer regional offices. The disappointment 
in the veterans' community with the backlog is not new. The 
issue has been ongoing for at least a decade, and frustrations 
have been expressed to this Committee. I have only been here 
for 10 months, but I have heard from other members who have 
been here longer, and certainly been reading about it in the 
media. So with all the evidence to the contrary, could you be 
more specific about how, in recent times, VA has been 
aggressive in improving its services through technology?
    Mr. Mayes. Well, one of the things we are doing right now 
is migrating away from this legacy system to the VETSNET 
system. That is a big one for us because it puts us on a modern 
platform so that we can actually make some programming changes, 
as opposed to being on that very old system that, granted, has 
been a good system in making payments, it is interfaced with 
Treasury and made payments for many, many years and not missed 
a beat. But as we have moved into the information age, it 
really has not had the capability to allow us to do things like 
put information out of our claims processing system up onto a 
Web platform. Once we move onto this new platform, we think 
that we are beginning to migrate toward that kind of IT 
infrastructure that will give us these capabilities.
    We are imaging documents right now. We have an application 
called Virtual VA. And in this application, we are taking paper 
and converting it to images. We are not at a point, and I don't 
think we will be at a point in the near future where we are 
moving everything with data, we are exchanging data between DoD 
and VA. I think we will be exchanging some data, clearly. But I 
think there are awful lot of paper records out there. This 
application allows us to image the paper. And once we have it 
imaged, then we can move that paper, that claim around the 
country. We have a pilot program going on right now in our 
regional office in Winston-Salem, where we are taking claims 
from servicemembers, imaging the documents, imaging the claim 
and then sending that to--they are either rating those claims 
or sending them out to Salt Lake City to rate those claims as 
images as opposed to shipping claims files. Those are the kinds 
of things we are doing. But it gets complicated because we have 
to integrate the imaging system, which eventually we hope to 
become our electronic folder, if you will, we have to integrate 
that with our claims processing system. Then we want to have an 
electronic application vehicle. That has to integrate with our 
claims processing system.
    We have engaged IBM in a study recently to take a look at 
our claims process, and whether there are technologies that we 
can leverage. That statement of work is already out there. They 
have started their work. We just completed a request for 
information (RFI). We had 10 vendors come in, and we looked at 
all of these technologies that are out there. And one thing I 
think that we are realizing is that this is a big thing with a 
lot of moving parts. We probably need some expert integration 
support to help us. I think within the next year, that is what 
we are talking about in the testimony, that we will have some 
request for proposals (RFPs) on the street to bring some of 
this expertise in to help us.
    Mr. Hall. That is great. Thank you. I just have a couple 
more quick questions before I turn it over to Mr. Lamborn. 
Recently several staff at the Committee were present at a 
demonstration of TurboVet, a program which operates similarly 
to TurboTax, and which would allow veterans to fill out a form 
21-526 parts A, B, C and D online in a matter of minutes. I 
know the State of Virginia has signed onto this initiative, and 
others such as Maryland and Georgia are considering following 
suit. As presented, it seemed to have endless capabilities in 
helping VA convert to an electronic platform. Are you familiar 
with the TurboVet proposal? And what are your thoughts on its 
applicability to the VBA?
    Mr. Mayes. I am familiar with it. I have not seen the 
application, but I am familiar with it. And it is exactly the 
kind of idea that we are talking about. It is what we want to 
do. The thing is we have this huge investment in the migration 
to VETSNET. We have a Virtual VA that we think needs to be 
modernized. But that is the sort of the concept for an 
electronic file. And it is this integration piece that TurboVet 
is the concept for. We like that concept. We want a veteran, to 
be able to log into a Web site and pull up his or her personal 
record. You know, the Dole-Shalala Commission called it ``My 
eBenefits.'' Pull up that record, and that is theirs, and it is 
customizable so they can only look at the stuff they want once 
they set it up. They can interact with us, and they can file an 
application. Those are the things that we are moving toward. 
Whether the TurboVet application itself would lend itself to 
integration with our systems, I don't know. And I think Dr. 
Tibbits, if you want to jump in here, you are right in the 
middle of all of this.
    Dr. Tibbits. Okay. Well, thanks so much.
    Mr. Chairman, maybe the way to think about this is to kind 
of fly up above the fray for a minute, say, to the 10,000-foot 
level so you can see the beginning to the end of a claim, the 
life-cycle of a claim. And if you begin to take that 
perspective, what we are after in the Department is an 
organizing framework that would tell us where the things we 
have underway, the pilots and so forth fit into that entire end 
to end process, and where there are gaps and what additional 
things need to be done.
    The IBM study that Brad just mentioned will give us a 
report early next calendar year on looking at that overall end-
to-end process of the life cycle of a claim from origination to 
final determination, as in an as-is mode what might be 
desirable, i.e. to be a future state, and what the gap is 
between the two. In those instances where that gap is amenable 
to information technology insertion to make something better, 
which many of the gaps will not be, but in those instances 
where there are, some of these pilot studies that Brad just 
mentioned will fit and will get the job done. There will be 
areas where we don't have something underway yet, and we will 
need to do something new in information technology. The RFI, 
the responses to the RFI from industry that Brad just mentioned 
a moment ago is the other big piece of that, which will give us 
industry's view on what products and technologies are available 
to insert into that process where it will make a difference in 
that process. And so based on that IBM road map, if you will, 
we would be able to better pinpoint where IT dollars will make 
a difference visible to the veteran and where IT dollars would 
be a waste of time. There are parts of that cycle that are 
efficiency driven and under the control of VA. There are parts 
of that cycle that are statutory in nature, which no amount of 
information technology is going to change. So knowing all that 
and understanding the relative balance of where IT makes a 
difference and where it does not has to be part of this plan 
which we intend to have put together out of these pieces that 
we just mentioned to you, the two big pieces, by March, April 
of next year. That should give us this road map to understand 
where to best pinpoint those dollars and those efforts.
    Mr. Hall. Thank you. Could you tell us how much you 
estimate VETSNET would cost?
    Dr. Tibbits. I can't tell you today, but I will be happy to 
get the number for you. I do have the number. I don't remember 
it right now. But that is part of the life cycle baseline for 
that system, and we have that.
    Mr. Hall. How much is invested so far?
    Dr. Tibbits. I will have to get that for you as well.
    [The information from VA follows:]

    The total planned cost based on the life cycle baseline for the 
system is $157,363,000.

    Mr. Hall. If you can do that. While you are doing your 
homework, I wanted to ask----
    Mr. Mayes. It is a bunch.
    Mr. Hall. I am sure.
    Mr. Mayes. It is a bunch. And the thing is, and I hope we 
are making the point, though, that we have been going down that 
road. What we have been working closely together on, though, is 
trying to come up with this overarching plan so that we know 
which ones we keep, which ones we turn off, which ones are 
missing. It is that integration plan that we are working hard 
on right now.
    Dr. Tibbits. And also just to put a footnote in here, 
VETSNET is the claims tracking system to address compensation 
and pension. It is not the full scope of functionality needed 
to address everything that the Benefits Delivery Network system 
does. There are additional initiatives necessary that have to 
be put in place to address that full spectrum.
    Mr. Hall. Would you venture a guess, an approximation of 
what has been invested to date? I mean, a ballpark? Is it $10 
million? A $100 million?
    Dr. Tibbits. In VETSNET? No. But again, I can certainly get 
that number for you.
    [The information from VA follows:]

    The total amount expended on VETSNET between 1996 and 2007 is 
$109,107,000. The list below is an outline of the Non-pay program 
expenditures through FY 2007. Also included are the FY 2008 Funding 
Allocation and the FY 2009 Funding Estimate.

                             VETSNET PROJECT
------------------------------------------------------------------------
               Expenditures 1996-2007                     (Millions)
------------------------------------------------------------------------
  C&P Replacement System-- Awards and FAS                      $ 65.107
------------------------------------------------------------------------
  MAP-D                                                        $  3.600
------------------------------------------------------------------------
  RBA2000                                                      $  5.912
------------------------------------------------------------------------
  BDN Conversion and Utilities                                 $  4.245
------------------------------------------------------------------------
  Testing and Quality Assurance                                $ 21.075
------------------------------------------------------------------------
  Project Management Support                                   $  1.400
------------------------------------------------------------------------
  VETSNET Study (SEI)                                          $  0.700
------------------------------------------------------------------------
  MITRE Corporation Programmatic and Strategic                 $  3.070
 Support
------------------------------------------------------------------------
  C&P Engineering Support                                      $  0.560
------------------------------------------------------------------------
  St. Petersburg Development Center Operations                 $  1.328
------------------------------------------------------------------------
  Miscellaneous Software                                       $  2.110
------------------------------------------------------------------------
Total Expenditures 1996-2007                                   $109.107
------------------------------------------------------------------------
  FY08 Funding Allocation                                      $ 24.406
------------------------------------------------------------------------
  FY09 Funding Estimate                                        $ 23.840
------------------------------------------------------------------------
Total Planned Cost 1996-2009                                   $157.363
------------------------------------------------------------------------


    Mr. Hall. Okay. And is it true that part of the reason that 
VBA is behind the eight-ball on IT is that it has not done 
strategic planning on this for the past 7 or 8 years? And is 
this the role that the IBM report is supposed to play? I am 
just curious. It seems like there was a lapse, and now all of a 
sudden there is a big push with IBM.
    Mr. Mayes. Well, I think that we are making huge progress 
with, again, moving off the BDN payment system that really is a 
system that was developed in the mid-seventies. Would we have 
liked to have been off the BDN before now? You betcha. But this 
past year alone, we processed over 200,000 claims in VETSNET. 
And we have actually been using elements of VETSNET since 2004. 
The RBA 2000 application, that is part of that Modern Awards 
System, is the application that actually generates the rating 
decision. The MAPD system, the Modern Award Processing 
Development piece, that has been in place for years. What we 
are bringing home right now is the paid piece, the part that 
does the financial transactions, that sends the information 
over to Treasury to generate the payments. So that is the last 
piece to move off of the legacy system. And we would have liked 
to have been there sooner. I think the planning that is going 
on now is going beyond that, though. It is, here is how we 
deliver services today--it is not about just getting off the 
legacy system--and here is what we think it ought to be, this 
Web interface, they push information to us, veterans and their 
dependents and claimants, and then we can push information 
back.
    Dr. Tibbits. And if I could add to that a little bit, your 
question I think is an excellent one about strategic planning. 
There is certainly a great deal of strategic planning that goes 
on at the Department. And it is a valuable piece with respect 
to creating an organizing framework and an end zone, if you 
will, a goal post for what it is IT is supposed to accomplish. 
It is ongoing, and perhaps it could be better. But I want to go 
one level below that, because that is only part of the answer. 
One level below that is what connects strategic planning to 
real IT investment? There is a level of analysis between 
strategic planning and actual IT investment that has to happen. 
And it is actually at that connection point that this IBM 
initiative is more directly focused, where one actually depicts 
the actual processes, creates maps on a wall that actually 
looks at the processes of the life cycle of a claim and says, 
where can we make a difference and where can we not? That 
connection piece has really not necessarily been pursued very 
well, and we now are, yes.
    Next, with respect to program management discipline, if you 
go one level further down, and this is well documented in the 
VA in many instances by Carnegie-Mellon studies, which are 
available, I am sure that could be gotten, but anyway, in the 
health arena for HealtheVet, for VETSNET itself, and then for 
our financial management systems. And they all indicate that, 
again, if you just go down to the rudimentary Mach one, Mod 
zero elements of good program management, the Department has 
not, it is well documented in those studies, engaged in a very 
mature form of program management on these big programs. So we 
are undertaking to fix all of those in multiple levels. So it 
is not just the strategic planning level, we have to address 
several levels to get to the point that we want to and that you 
want us to be.
    Mr. Hall. Thank you very much. I appreciate that. And I am 
just wondering is there a target date for completion of the IBM 
study?
    Dr. Tibbits. January.
    Mr. Mayes. January.
    Mr. Hall. Good. And one relatively mundane, low-tech 
question now before I turn it over to Mr. Lamborn is, can you 
provide us with data on what are the actual costs or average 
costs today for burial in a national cemetery?
    Mr. Mayes. Average costs for burial in a national cemetery. 
Can you do that?
    Mr. Hall. 2007.
    Mr. Schettler. I am afraid we don't have that number with 
us today, but I can get back to you with that. I am not sure of 
the actual cost.
    [The following was subsequently received from VA:]

    Burial services in a VA national cemetery are comprised of a 
committal service, and burial of casketed or cremated remains. The 
committal service for a veteran may include Military Funeral Honors.

    <bullet>  The cost for the interment component of burial services 
in VA national cemeteries varies depending on the type of burial chosen 
and the topography, soil conditions, and other conditions unique to 
each national cemetery. Casket burials generally cost in the range of 
$500 to $800. Cremation burials (whether in-ground or in a columbaria) 
are in the range of $300 to $500.
    <bullet>  The Military Funeral Honors program is under the 
jurisdiction of the Department of Defense (DoD). At VA national 
cemeteries, Military Funeral Honors are provided by active duty 
members, reservists, National Guard and volunteer honor guards who may 
or may not be recognized as Authorized Providers by DoD. All volunteer 
honor guards participate in the various components of the funeral honor 
detail as necessary including flag folding, firing party and providing 
bugler or recorded taps.

        23 VA national cemeteries have volunteer honor guards:

      <bullet>  Sixteen are volunteer honor guards who function 
independently from any DoD entity and do not receive DoD reimbursement;
      <bullet>  Seven are recognized as an AP3 Partner (Authorized 
Provider) with DoD and receive DoD reimbursement for local travel 
expenses.

    The seven honor guards recognized by DoD as AP3 Partners 
(Authorized Providers) at VA national cemeteries have received training 
by the respective branches of service they represent and have been 
certified to provide honors with that specific branch. They file an SF 
1164, Claim for Reimbursement for Expenditures on Official Business, to 
receive reimbursement for local travel expenses incurred in conjunction 
with authorized Military Funeral Honors detail. Note: one additional 
group plans to be certified as an AP3 Partner by the end of 2007.
    All volunteer honor guards at VA national cemeteries, whether a DoD 
Authorized Provider or not, are registered as volunteers with the VA 
Medical Center Volunteer program. The volunteer program provides lunch 
vouchers to all volunteers who are on duty for a minimum of 4 hours 
each day at a nominal cost to VA. There are no other costs associated 
with the provision of Military Funeral Honors at VA national 
cemeteries.

    Mr. Hall. Thank you. And I would ask if you would do me the 
favor of submitting a written response or comments on H.R. 
4084.
    Mr. Mayes. Oh, yes. And we just didn't have time to put 
those together. And our intent was to formally respond, Mr. 
Chairman.
    [The Administration views for H.R. 4084 appear on p. 58.]
    Mr. Hall. Very good. Thank you. That is good for me. Mr. 
Lamborn?
    Mr. Lamborn. Thank you, Mr. Chairman.
    Mr. Mayes, can you describe the process of a STAR review, 
and how many claims are reviewed during that kind of a process, 
and what do you do when a mistake is found, and are procedural 
errors considered in that kind of a review process?
    Mr. Mayes. The STAR review process, the Systematic 
Technical Accuracy Review program, is one element of our 
quality assurance programs. It looks at the outcome for 
veterans. We do a sampling of cases from all of our regional 
offices. Right now, it is 110 cases per year per office; a 
little bit larger for some of our really large offices. That 
was up until this fiscal year. We are going to double the size 
of those reviews this year. We are going to move up to 240 per 
regional office per year. That is one of the things that came 
out of the Institute for Defense Analyses (IDA) study that was 
recently completed at our request. It was looking at the 
consistency of decisions across States. We randomly select 
cases from a station, out of the claims they completed, in 
categories: whether they required a rating decision, whether we 
are looking at authorization activity, or fiduciary activity, 
etc. We call those in and we look at the case and we determine 
if there were any decision entitlement errors. In other words, 
did we make an error that caused the veteran to receive the 
improper payment amount? And we either say yes or no on that. 
We collect that information. It is reported on our STAR Web 
site. We also look at decision documentation and notification. 
Did we dot all the i's and cross all the t's, if you will, 
regarding the correspondence process, the notification process, 
and things like that. So we break the review down into those 
categories for rating, for authorization, and for fiduciary. 
Those reviews are conducted in Washington, and also we have 
staff in Nashville, Tennessee. We send those cases back to the 
service center manager at the station. The service center 
manager looks at those cases. If it was an error that resulted 
in improper payment, then they fix it at the station. And then 
what they do, and some do it better than others, I will 
acknowledge, but what they do is look at those errors as they 
are coming back from the STAR review process to identify 
trends, which ideally are fed back into the training loop at 
the regional office.
    As I said, because of the IDA study, we are going to 
increase the number of reviews; we are going to double the size 
of the number of reviews. There are actually four elements to 
our quality assurance program. There is STAR, there are 
compliance surveys, or site visits, where we go out to regional 
offices and check and see if they are doing all these things; 
we do special reviews. For example, if we think we have a 
problem in exams in a certain area, we might call some cases in 
and look at them. But this year, we are adding a fourth 
element, and that fourth element is looking at consistency, 
which was one of the recommendations out of the IDA study. We 
are looking at particular body systems, especially those where 
we evaluate claims we get frequently from veterans. Then we are 
breaking that down into the diagnostic codes where there are 
lots of decisions made across the country. From there, we are 
plotting by regional office the grant rates and the most 
prevalent evaluation, the mode. We are looking to see if a 
regional office appears to be an outlier. Then we are calling 
cases in, again, about 240 cases in that very specified area to 
make sure that they are following the procedures properly or 
that, perhaps, we have an area where we need to improve our 
policy. That is starting this year. I have approval from the 
Under Secretary to hire 16 additional people. We are expanding 
space in Nashville. We intend to have, at the end of the day, a 
quality assurance center down there. I am being allowed to 
almost double the size of the current STAR staff. So we are 
taking steps to be much more robust in our quality assurance 
program, which already has been recognized; the Center for 
Naval Analyses recognized it as superior to that of Social 
Security's and Office of Workmen's Comp in their review for the 
Disability Benefits Commission.
    Mr. Lamborn. Now if there is a mistake discovered that an 
employee has made, are they in any way penalized for that?
    Mr. Mayes. That particular STAR error is not used in their 
Individual Performance Management. The STAR program is one of 
the four elements of our national Quality Assurance Program. 
But at every regional office, every decisionmaker, whether they 
be a Veterans Service Representative or a Rating Veterans 
Service Representative, has a performance plan. The Director of 
that office has a performance plan. And in every single one of 
those performance plans, there is an element for production and 
there is an element for quality, from the Director to the RVSR 
to the DRO to the VSR. Five cases per RVSR per month are 
reviewed for individual quality. They are having their cases 
reviewed for quality.
    We don't take that STAR error and apply that to their 
monthly Individual Performance Plan number. We do not do that. 
We didn't want the purpose of the National Quality Assurance 
Program to be a gotcha. We wanted to really have a program that 
would provide feedback and information to the regional offices 
so that they could alter course if they needed to. Maybe they 
were having problems with effective dates or, you know, 
something very specific.
    Mr. Lamborn. Would you be in favor of competency testing 
for RVSRs and VSRs to improve accuracy and quality?
    Mr. Mayes. We are actually testing Veterans Service 
Representatives. We have a skill certification program that 
tests the skills and abilities of VSRs. Now, I have to qualify 
that. It is only for promotion to the journey level, the GS-11 
journey level for the VSR. And so I think Mr. Smithson talked 
about it a little bit. Between the interim grade levels there 
is not a test in place. But to achieve the journey level, you 
have to pass this test. We are in the process of developing an 
RVSR test instrument, with 100 questions. We are bringing in 
subject matter experts. We are working with a contractor to 
help develop this test. Once we have that in place, of course, 
we have to fulfill our bargaining obligations with our labor 
partners to get that in place. That has been a bit of a 
challenge for us. Because we are promoting people to the RVSR 
level when they have time in grade. The way the process works 
right now we don't have the leverage to say, ``you are not 
going to get promoted until you pass that test.'' Because we 
have to invest so much time and energy into the training of an 
RVSR. And, by that time, the employee has already been with the 
organization for a while. They are typically a GS-10 or 11. The 
RVSR is a GS-12.
    Mr. Lamborn. Now more of a general question. I believe that 
we must invest in the development of claims processing 
assistance tools. We have been discussing that. The Chairman 
had some questions. I have questions, and you have provided 
testimony on that. Your testimony describes an RFI that would 
use tools like rules-based engines and evidence organization 
software to improve the current system. Can you expand on the 
results of the RFI and what the next step for these 
improvements would be?
    Mr. Mayes. Yes, sir. I would just like to say, Mr. Lamborn, 
you had mentioned earlier in your testimony that we had not 
been available. I want to say on the record, I would be glad to 
work with your staff or have your staff come over. I have had 
one member of your staff over, and I am willing to come over 
here and talk about the things that we are doing. I believe 
that is beneficial for all of us. It is early in the process. 
We had 10 vendors come in and they talked to us about a variety 
of things, to include rules-based processing technology, 
project integration, things that some of these companies were 
already working with. I remember one was working with the 
Internal Revenue Service. So they came in and basically 
demonstrated their wares. I think what did it for me, and I 
attended many of these briefings, is that it helped me 
understand what it is we need. Because it is so complex and 
because there are so many moving pieces. The next step would be 
for us to get a RFP out on the street to engage some of this 
expertise. I believe that is going to happen in the very near 
future. In fact, I know that the Acting Secretary is very 
interested in getting this moving. He wants us to take an 
application from a claimant, not the way we do today. We have a 
veterans online application that will allow a veteran to go 
online and file an application, but we are generating the form 
on the other end. What we need to do is take the information 
that is collected in that exchange and move it right into our 
data system. I think what you will see in the near future is an 
RFP maybe initially to help us with that project integration.
    Dr. Tibbits. Let me also add a few comments to that, if I 
might. I mentioned earlier the two big elements, the IBM study 
and then the response to this RFI, which we are discussing 
right now as being two elements of a planning activity that has 
to come together and will come together in the March or so 
timeframe. That will be a requirements-driven or a business-
driven plan that will actually tell us where to best apply the 
IT dollars based upon an overall assessment of the business of 
processing claims. Out of that will come an acquisition 
strategy. That acquisition strategy will include if we need to 
do more pilots, if we need to go buy things. It may be in-house 
development. It may be speeding up some programs. It may be 
slowing down some programs. Out of that acquisition strategy we 
would depict whether we need an RFP, three RFPs, two systems 
integrators, whatever those piece parts are would be a mosaic 
of activities to undertake things to achieve the capabilities 
necessary to meet what shows up in that gap analysis. So it may 
turn out to be a single RFP. It may turn out to be multiple 
RFPs. It may turn out to be combined with a bunch of internal 
activities, all in accordance with that plan. So that plan 
becomes a key element of concatenating together all the piece 
parts to achieve that result.
    Mr. Lamborn. Okay. Thank you. Two more questions. We have 
had some discussion today about survivors being able to step 
into the shoes of a claimant who has passed away. Specifically 
what would you like to see there, assuming we go forward one 
way or another and do something there?
    Mr. Mayes. Well, I think the way this draft legislation was 
structured, it talked about completing the submission of a 
claim.
    Mr. Lamborn. And I believe that it is in both H.R. 3047 and 
H.R. 4084. Okay. Just H.R. 3047? Okay.
    Mr. Hall. Different language, but same general idea.
    Mr. Mayes. Right. And I understand the intent of the 
proposed legislation. We have said we would be supportive of 
that. That is, if a claim is pending at the time the claimant 
passes away, then we would go ahead and adjudicate that claim 
as though it were the claimant's. That is the idea of 
substitution. But only if that claim is pending at the time 
that the veteran dies. The way the regulation reads today, the 
claim will be adjudicated, but it will be adjudicated based on 
the evidence of record at the time of death. There might be 
some evidence that we hadn't collected yet, that we hadn't gone 
out and gotten. For example, an opinion that says this 
disability is due to this incident in service. So what we are 
suggesting is that, with some tweaking of the language, I think 
there is common ground here, and we would make a commitment to 
go out and secure that evidence and make a decision as though 
it were the claimant's in an accrued claim. And Dick, am I 
missing anything on that?
    Mr. Hipolit. No. I think that is an accurate statement. We 
said we have problems with this bill because of the language 
that would allow someone to come in with a claim many years 
later. But I think we could work with you to develop language 
that would be acceptable to VA and to the Committee.
    Mr. Lamborn. Well, that is an example where the opportunity 
to have talked more would have helped us maybe overcome that 
technical hurdle. And I would like to take you up on that. My 
last question, and this is not having to do with any of the 
bills we are looking at, but I am really exercised about what 
happened out in California with that flag-folding ceremony. And 
I think there was an overreaction by the part of someone in the 
National Cemetery Administration to crack down in an 
overreacting kind of way to that particular ceremony. Is there 
anyone here today who could address that, how that problem came 
about and how we could fix that?
    Mr. Schettler. Yes, I would be happy to address that. I 
hope everyone understands the background about military honors. 
The DoD is in charge of doing military honors for the whole 
country: they do not provide this flag recitation during their 
ceremony. Some of the VA sponsored volunteer honor guards do 
provide this. We found at a couple of our National cemeteries, 
voluntary honor guards were approaching the families as they 
drove up in the funeral cortege, putting this in front of them 
and saying ``we want to read this at your ceremony.'' We 
thought that was inappropriate. We wanted to clarify that and 
stop that from happening. We didn't want to stop the flag-
folding ceremony. We didn't want to stop the opportunity for 
the family to have the recitation if they wanted that. We put 
out a second memo, clarifying our stance on that. Now, the 
honor guards and our own staff are available for the families 
if they want to have anything said, regardless of their 
religion, regardless of what they want to do at their service. 
We have a whole variety of ceremonies at our committal shelters 
all the time. That is available for the families now. We didn't 
really have anything to ban. But we did want to stop these 
volunteer honor guards in some instances approaching and 
imposing on the families at a time when they were really 
vulnerable. And they didn't understand in some cases--what it 
was they were receiving and what they were going to have at 
their service. Many families didn't even know that existed. 
There is no official flag-folding recital that I am aware of. 
When this issue broke, I went online, and I found many versions 
of this 13-fold recitation, and with variations. We didn't know 
what was being handed to the families. We didn't know what was 
being put on the walls of our offices for the families to see. 
So we tried to put a stop to that but to allow the families to 
have anything they wanted or asked for at their service. They 
can certainly have the flag recitation if they want it. And 
that is where we are now.
    Mr. Lamborn. I think everyone would agree the families' 
needs and desires comes first. And that goes without question. 
I just would be concerned if there was a chilling effect on 
volunteers not being able to even discuss the recitation during 
the flag-folding ceremony, or families not knowing that it was 
available when to many families it would be a comforting thing.
    Mr. Schettler. Well, first of all, there is no official 
flag-folding recitation. And we have not been able to find 
anything like that. I believe this--the research I found was, 
an Air Force chaplain wrote it maybe 60 years ago, and it was 
used in retirement ceremonies for Air Force officers. And then 
it started getting used at some of our cemeteries. It is not 
used very much at our national cemeteries. We have about 70,000 
burials of veterans in our cemeteries and over 100,000 burials 
all together each year. It is not used very often. Most of our 
volunteer honor guards do not use any flag recitations. It is 
only used in isolated instances. I would venture a guess there 
are only a few thousand of those 70,000 burials that the flag 
recitation is used.
    Mr. Lamborn. Okay. Thank you.
    Mr. Hall. Thank you, Mr. Lamborn.
    Thank you all for your testimony and dedication to our 
Nation's veterans. Just an observation or a comment that I am 
happy to hear about Winston-Salem and Nashville and Las Vegas, 
was it? And I just hope we don't hear Bangalore next in terms 
of the IT work. I hope that we continue to, especially as it is 
privately contracted to IBM or whoever else it gets contracted 
to, that we can keep that work in the United States. With that 
said, I want to thank you for your dedication and your 
testimony and the help that you provide every day to our 
Nation's veterans. Thank everyone for their statements this 
afternoon and for your patience with our coming and going. This 
hearing now stands adjourned.
    [Whereupon, at 4:34 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Prepared Statement of Hon. John J. Hall, Chairman,
       Subcommittee On Disability Assistance And Memorial Affairs
    Good Morning,
    I would ask everyone to rise for the Pledge of Allegiance--flags 
are located in the front and in the rear of the room.
    I would first like to thank all of the witnesses for their 
testimonies on these seven non-controversial but critical bills, 
concerning memorial benefits, pensions, and the Department of Veterans 
Affairs claims processing system. I would specifically like to thank my 
colleagues, Mr. Filner, Chairman of our Committee, Ranking Member 
Lamborn, Ms. Berkley, Mr. Langevin and Mr. Brown, for joining us today. 
I look forward to hearing their testimony on their respective 
legislation.
    Four of the bills that we will consider today address the memorial 
assistance and death benefits provided to the families of our veterans. 
At these times of grief, it is important that we honor our veterans' 
service and sacrifice appropriately.
    Due to the current deployment schedule of our active duty troops 
and the aging of our veterans from previous conflicts, it has become 
increasingly difficult to ensure military presence for proper honors 
details at veterans' funerals. The Providing Military Honors for our 
Nation's Heroes Act, H.R. 3954, introduced by Chairman Filner, attempts 
to increase the number of details available to our veterans' families 
and help ensure the proper honor is provided at veterans' burials. This 
legislation would authorize the Secretary of Veterans Affairs to 
reimburse volunteers from approved organizations for expenses incurred 
while providing these vital ceremonial duties.
    The Veterans Burial Benefits Improvement Act of 2007, H.R. 3249, 
introduced by my colleague from Nevada, Ms. Berkley, would increase 
burial allowances and plot allowances for both service connected and 
non-service connected veterans. This legislation allows for annual 
adjustments to ensure that these benefits will continue to keep pace 
with rising funeral and burial costs, ensuring that all of our veterans 
can be interred in a proper and respectful manner.
    H.R. 3415, introduced by Mr. Langevin, aims to assist family 
members of those buried in American Battle Monument Commission 
cemeteries abroad by providing them a remembrance of their loved one on 
U.S. soil. As it may prove difficult for family members to travel to 
these overseas grave sites, this legislation would authorize memorial 
markers for this limited population of servicemembers which could be 
placed in national veterans cemeteries closer to home.
    Today, we will also consider the appropriateness of our current 
regulations regarding Dependency and Indemnity Compensation (DIC). H.R. 
3286, also introduced by Chairman Filner, would shorten the time period 
for which a veteran must be rated continuously totally disabled 
immediately preceding his or her death before the veteran's survivors 
are eligible for these benefits from 10 years to 1 year. Given the 
current backlog in the VA's claims processing system, veterans wait 
years, even decades, to receive their final rating. In the case of 
totally disabled veterans, the resulting benefits may, unfortunately, 
come too late. These delays should not negate our responsibility to 
these veterans' families and this legislation will ensure that their 
survivors receive the benefits due to them.
    We will also hear testimony on updating the special pension awarded 
to Medal of Honor recipients and their spouses. H.R. 1137, introduced 
by Mr. Brown, would increase this special pension to $2,000 per month 
from $1,104. This pension was last adjusted in 2006, but the acts of 
these extraordinary servicemembers, currently 111, resulted in the 
receipt of our highest military honor, the benefits that we provide to 
them should reflect nothing less.
    Today we will also consider the VA Claims processing system and 
address two pieces of legislation that seek to make the process more 
efficient and effective for our Nations' veterans.
    Ranking Member Lamborn introduced the Veterans Claims Processing 
Innovation Act of 2007, H.R. 3047, which among other things seeks to 
increase the effectiveness of claims filing and addresses the VA's work 
credit system. I look forward to hearing more about this bill.
    Lastly, the Veterans Quality of Life Study Act of 2007, H.R. 4084, 
which I recently introduced, would take an important step toward 
examining one of the groundbreaking recommendations set forth by the 
Veteran's Disability Benefits Commission, the Institute of Medicine and 
the President's Commission on Care for America's Returning Wounded 
Warriors regarding quality of life. Answering the call of these 
recommendations, this legislation would require the VA to commission a 
study to determine whether and to what extent its disability rating 
system should compensate veterans for the loss of quality of life these 
impairments impose on their lives.
    This legislation also seeks to allow substitution of claimants, 
ensuring that eligible family members can take the place of a veteran, 
in the event of his or her death, in the disability claims processing 
system and not have to begin all over again. Lastly, this bill would 
expand the categories of reporting requirements of the annual report of 
the CAVC that would further assist Congress in analyzing and addressing 
the Court of Appeals for Veterans Claims workload and backlog. The last 
provision deals with concerns the CAVC has raised about space 
allocation and the proposed construction of a Veterans Courthouse and 
Justice Center.
    During times of war, such as today, we must simultaneously ensure 
the proper compensation and support for our current veterans while also 
creating and implementing innovative solutions that will allow us to 
care for those who will become veterans of our current conflicts. I 
also look forward to hearing from the Veterans Service Organizations 
and the VA's representatives on these bills.
    Thank you.

                                 <F-dash>
   Prepared Statement of Hon. Doug Lamborn, Ranking Republican Member
    Thank you Mr. Chairman for yielding and I thank you and your staff 
for holding this hearing today. I requested this hearing earlier in the 
session and I commend your bipartisanship in holding it today.
    This afternoon, we are considering several pieces of legislation, 
all of which are of interest and potential value. While I am currently 
not opposed to any of the proposed legislation I am concerned about the 
mandatory offsets that would be necessary to pass many of these bills 
under PAYGO rules.
    That being said, I look forward to hearing more about these bills 
from our colleagues and the other witnesses who are with us today.
    Mr. Chairman I would like to focus the rest of my time on 
discussing the bill I introduced H.R. 3047, the Veterans Claims 
Processing Innovation Act of 2007. This bill has the bipartisan support 
of 32 cosponsors and is supported by many of our witnesses here today.
    H.R. 3047 will bring VA's compensation and pension system into the 
21st century. By increasing accountability and leveraging technology at 
the Veterans Benefits Administration, this bill would improve the 
accuracy and speed of benefits claim processing.
    Section two of the bill will require VA to create a new system for 
claims processors to acquire credit for their work. One way to reduce 
the disability compensation backlog is to ensure that VA adjudicators 
rate the claim correctly the first time.
    While I believe that the system described in section two will help 
achieve this goal, I am open to other suggestions that will ensure that 
VA adjudicators focus on accuracy as well as speed. As I have said 
before, most veterans would rather wait a few more days for their claim 
to be adjudicated correctly the first time than have it be adjudicated 
quickly and have it be wrong.
    Section three of my bill would require VA to establish a pilot 
program to create a ``Regional Office of the Future'' where all claims 
would be processed electronically. Mr. Chairman we have heard from 
numerous witnesses at several hearings during this session that 
processing claims electronically is the way of the future and would 
prevent future VBA backlogs.
    After several questions and concerns were raised about this 
section, I was happy to work with Veteran Service Organizations and the 
Majority staff to create the amendment in the Nature of a substitute 
for H.R. 3047 that I would offer when this bill is marked up. I want to 
make it clear that this provision would only establish a pilot program 
for electronic claims processing to aide VBA employees with their 
adjudication and would not replace them.
    Section four of the bill would allow substitution of family members 
for a deceased veteran for the purposes of acquiring accrued benefits 
for which they are due. I am happy to see that a similar provision is 
included in your bill Mr. Chairman and I look forward to working with 
you on this.
    The final section of my bill would require VA to use a reputable 
private entity to evaluate its quality assurance and training programs. 
While I understand and support VA's current attempt to centralize and 
improve training, I would like an independent organization to verify 
they are on the right path.
    Mr. Chairman I was very disappointed in the testimony from VA on 
H.R. 3047. I understand that this bill is not perfect but rather than 
offering a simple out of hand dismissal of the bill I would have 
appreciated constructive input from them on how to perfect this 
legislation to improve the system.
    My staff has asked VA numerous times for ways that we can help them 
improve this outdated system with little response. That is why I am 
happy to read about the three initiatives in their testimony which seem 
to be moving in this direction.
    I am committed to continuing to work with you Mr. Chairman, VA, and 
other stakeholders to perfect legislation that will revolutionize the 
disability compensation system and bring it in line with modern 
technology.
    I would like to thank veteran service organizations for their 
support of this legislation, and I suggest to my colleagues that they 
also read the testimonies from AMVETS and Mr. Ron Abrams of NVLSP who 
both support H.R. 3047 but were unable to be with us today but have 
submitted for the record.

                                 <F-dash>
            Prepared Statement of Hon. Henry E. Brown, Jr.,
     a Representative in Congress from the State of South Carolina
    Mr. Chairman and Members of the Subcommittee:
    Thank you for allowing me to testify before the Subcommittee on 
Disability Assistance and Memorial Affairs today on H.R. 1137, which 
would increase the Medal of Honor special pension. This bill, which I 
have worked on with my colleague Mr. Michaud and introduced in both the 
109th and 110th Congress, seeks to further recognize the bravery and 
exceptional service of the recipients of the Medal of Honor.
    The Medal of Honor is the highest military decoration awarded by 
the United States of America. It is awarded ``for conspicuous gallantry 
and intrepidity at the risk of life, above and beyond the call of duty, 
in actual combat against an armed enemy force.'' Since its initial 
presentation to Private Jacob Parrott in 1863, 3,445 Americans have 
been awarded the Medal of Honor.
    Today, there are 109 living Recipients of the Medal of Honor. The 
average age of a living recipient is 74 and 47% of Recipients earned 
their Medals more than 50 years ago while serving in World War II and 
Korea. The oldest living Recipient, John W. Finn is 98 years old. He 
received his Medal for actions during the attack on Pearl Harbor, 
December 7, 1941. In addition to Mr. Finn, 34 other living Recipients 
are World War II Veterans.
    Sixty-one living Recipients of the Medal of Honor earned their 
Medals while serving in Vietnam, including my good friend General James 
Livingston. At this time I would like to thank General Livingston not 
only for his heroic service to our country during the Vietnam War, but 
also for his tireless work on behalf of America's veterans in the years 
since.
    The most recent Medal of Honor was awarded posthumously on October 
22, 2007 to Lieutenant Michael Murphy, a Navy SEAL recognized for his 
service in Afghanistan. Lieutenant Murphy is the second Medal of Honor 
Recipient from the current Iraq and Afghanistan conflicts. Marine 
Corporal Jason L. Dunham was posthumously awarded the Medal of Honor 
for his action in Iraq in 2004.
    In recognition of their exceptional service, Medal of Honor 
recipients are entitled to a special pension, as first authorized by 
Congress in 1916. Currently, the 109 living recipients receive an 
inflation-adjusted $1,000 per month. In 2002, Congress increased the 
Medal of Honor pension, citing evidence that the majority of Medal of 
Honor recipients live solely on Social Security benefits, supplemented 
by the Medal of Honor pension. Of specific note, many Recipients travel 
extensively to speak at commemorative and patriotic events, often at 
their own expense, presenting an additional financial strain for which 
the VA Committee in 2002 deemed these heroes ought to be compensated.
    My bill, H.R. 1137, would increase the base payment of the Medal of 
Honor special pension to $2,000 per month and extend the benefit to 
surviving spouses. This benefit acts as a small token of appreciation 
for the selfless leadership, courageous actions, and extraordinary 
devotion to duty shown by Medal Recipients.

                                 <F-dash>
  Prepared Statement of Richard Daley, Associate Legislation Director,
                     Paralyzed Veterans of America
    Chairman Hall, Ranking Member Lamborn, members of the Subcommittee, 
Paralyzed Veterans of America (PVA) would like to thank you for the 
opportunity to testify today on H.R. 1137, H.R. 3047, ``The Veterans 
Claims Processing Innovation Act of 2007,'' H.R. 3249, the ``Veterans 
Burial Benefits Improvement Act of 2007,'' H.R. 3286, H.R. 3415, and 
H.R. 3954, ``The Providing Military Honors for our Nation's Heroes 
Act''.

           H.R. 1137, the ``Medal of Honor Special Pension''

    PVA supports H.R. 1137, a bill that would increase the Medal of 
Honor Special Pension from the current $1,000 per month to $2,000 per 
month. Millions of men and women have served this nation during periods 
of conflict; very few have ever received this nation's highest award 
for valor, the Medal of Honor. There are only 109 living recipients of 
this prestigious award, dating back to their service in World War II. 
PVA supports the increase of this special pension for these American 
heroes.

  H.R. 3047, the ``Veterans Claims Processing Innovation Act of 2007''

    We generally support H.R. 3047, the ``Veterans Claims Processing 
Innovation Act of 2007.'' PVA along with other veterans' service 
organizations are very concerned about the backlog of claims in the 
Veterans Benefits Administration. We know from recent testimony that 
the VA is trying to reduce the time of processing a new claim from the 
current 188 days. We believe that a veteran injured while serving their 
country should not have to wait that long for his or her claim to be 
processed. PVA supports this effort to help alleviate some of the 
backlog.
    Section 2 of the bill will establish a process that places an 
emphasis on the accuracy of the claims completed. If a VA regional 
office cannot receive credit for a claim until it is finally decided, 
we believe this will create an incentive to do it right the first time.
    Section 3 of the bill involves electronic processing of claims. If 
software is available, or can be developed to help with the processing 
of claims we would support a pilot program to test the efficiency and 
accuracy of this program. The legislation suggests that the software 
would somehow replace the human ability to review and evaluate evidence 
in order to render an evaluation. PVA does not agree that software 
exist that can replace the human element. We believe that requiring the 
VA to retroactively scan in claims could create an additional burden. 
Perhaps this new system should be tested on new claimants only.
    Section 4 of this bill would treat the beneficiary of a veteran's 
accrued benefits as the claimant for the purpose of completing the 
submission of the claim. PVA supports this modification.
    Section 5 of the bill requires evaluation of training and 
assessment programs for employees of the Veterans Benefits 
Administration (VBA). We support this section.

  H.R. 3249, the ``Veterans Burial Benefits Improvement Act of 2007''

    PVA supports H.R. 3249, the ``Veterans Burial Benefits Improvement 
Act of 2007.'' The original burial allowance benefit enacted in 1973 
was intended to help with the burial cost of the deceased veteran. The 
amount of the benefit paid to the family at that time was $150. In 1978 
the amount was increased to the current $300 for a non-service 
connected veteran, and in 2001 the amount for service-connected deaths 
was increased to $2000. This benefit was never intended to pay for the 
burial of the veteran, but help with a portion of the cost. The value 
of this benefit has eroded with inflation. In accordance with the 
recommendations of The Independent Budget, the comprehensive budget and 
policy document created by veterans for veterans, we support this 
legislation that will increase this benefit to $1,270 for a veteran and 
$4100 for a service-connected disabled veteran.
    We also support the increase in the plot allowance from the current 
amount of $300, to $745 for qualified veterans. This provision also 
reflects a recommendation of The Independent Budget. PVA supports the 
provision that would make an annual adjustment in the amounts paid for 
burial, funeral and plot allowance.

                               H.R. 3286

    PVA supports H.R. 3286. This bill would reduce the period of time 
for which veterans must be totally disabled for the purpose of benefits 
provided by the Secretary of Veterans Affairs for survivors of certain 
veterans rated totally disabled at the time of death. It would reduce 
the required time for the veterans' totally disabled rating from the 
current 10 year period to one year.

                               H.R. 3415

    PVA supports H.R. 3415, a bill to authorize the placement of 
memorial markers in a national cemetery for the purpose of 
commemorating service members or other persons whose remains are 
interred in an American Battle Monuments Commission cemetery.

                               H.R. 3954

    PVA supports H.R. 3954, ``Providing Military Honors for our 
Nation's Heroes Act''. In National cemeteries across the country 
dedicated veterans regularly perform the honorable ceremony of a 
military burial for fellow veterans. Usually the veterans providing 
this service are retired, living on a fixed and limited income and they 
may have traveled some distance. To reimburse these veterans for their 
expenses for performing this ceremony of recognition of service to the 
nation would be appropriate.
    Chairman Hall, Ranking Member Lamborn, thank you again for allowing 
PVA to provide our views on these important measures. We look forward 
to working with the Subcommittee to ensure that meaningful reforms are 
enacted. I would be happy to answer any questions you may have.

                                 <F-dash>
             Statement of Steve Smithson, Deputy Director,
    Veterans Affairs and Rehabilitation Commission, American Legion
    Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity to present The American Legion's 
views on these various bills. The American Legion commends the 
Subcommittee for holding a hearing to discuss these important and 
timely issues.

                               H.R. 3047

To amend title 38, United States Code, to improve the processing of 
        claims for benefits administered by the Secretary of Veterans 
        Affairs, and for other purposes.
    The American Legion is pleased to support the overall intent of 
this legislation. Specifically, we fully support allowing a deceased 
veteran's survivor to continue the claim upon the veteran's death 
rather than the Department of Veterans Affairs (VA) terminating the 
claim and requiring the survivor to file a separate claim for accrued 
benefits, as is the current practice. Not only does the current 
practice cause duplication of effort and add to the existing claims 
backlog by requiring a ``new'' claim to be filed, it imposes an 
arbitrary 1-year deadline for the filing of such a claim. This deadline 
is often missed by grief stricken family members who were either 
unaware of the deadline or were not emotionally ready to go forward 
with the claims process within a year of their loved one's death. This 
legislation provides a common sense approach that allows VA to avoid 
``reinventing the wheel'' by not having to start over from scratch with 
a new claim and, at the same time, provides the deceased veteran's 
survivors with a more user-friendly and less complicated claims 
process.
    The American Legion also agrees with the portion of this bill that 
would require VA to contract with a private entity to evaluate VA's 
quality assurance program. Receiving input on VA's training and 
performance assessment programs from an independent entity would 
undoubtedly provide new insight on how to enhance the current 
processes.
    Regarding proposed Section 4, ``Electronic Processing of Claims For 
Benefits Administered by Secretary of Veterans Affairs,'' The American 
Legion welcomes innovative ideas regarding the processing of benefits 
claims and does not oppose the concept of electronic claims processing. 
We were, however, initially concerned that this portion of the proposed 
legislation appeared to be calling for the centralized or consolidated 
processing of such claims, a concept The American Legion has generally 
opposed. It is now our understanding that the intent of this portion of 
the legislation is to establish a pilot program and is not intended to 
create a centralized VA claims processing system. It is also our 
understanding that this point will be clarified with the appropriate 
amendment language during the markup process. This being the case, The 
American Legion is not opposed to the creation of a pilot program for 
electronic claims processing.
    Lastly, The American Legion has been a vocal critic of the ``End 
Product'' work measurement system, which emphasizes and awards quantity 
of work produced rather than quality, currently used by VA. 
Unfortunately, this work measurement system essentially pits the 
interests of the claimant against the needs of VA managers. The 
conflict is created because the regional office managers seeking 
promotion and bonuses have a vested interest in adjudicating as many 
claims as possible in the shortest amount of time. This creates a 
built-in incentive to take shortcuts so that the End Product can be 
taken. The system, in effect, rewards regional offices for the gross 
amount of work they report, not whether the work is done accurately or 
correctly. Often, the emphasis on production results in many claims 
being prematurely adjudicated. Premature adjudication of claims has 
been a common problem identified during American Legion quality review 
visits at VA regional offices. These problems are caused (in part) by 
not taking the time to adequately develop the claim, not taking the 
time to identify all relevant issues and claims, and not taking the 
time to order a new VA examination when the previous VA examination is 
obviously inadequate. Such errors are often overshadowed by the desire 
of VA managers to claim quick End Product credit. The Board of 
Veterans' Appeals (BVA) combined remand and reversal rate (56 percent) 
for Fiscal Year 2007 is arguably a direct reflection of the greater 
emphasis placed on production over training and quality assurance by 
the VA regional offices.
    Veterans Benefits Administration (VBA) management has been 
reluctant to establish a rigorous quality assurance program to avoid 
exposing the longstanding history of the manipulation of workload data 
and policies that contribute to poor quality decision-making and the 
high volume of appeals. VBA's quality-related problems and the fact 
that little or no action is being taken to prevent or discourage the 
taking of premature End Products have been longstanding issues for The 
American Legion. The current work measurement system, and corresponding 
performance standards, are used to promote bureaucratic interests of 
regional office management and VBA rather than protecting and advancing 
the rights of veterans. The End Product work measurement system, as 
managed by VA, does not encourage regional office managers to ensure 
that adjudicators ``do the right thing'' for veterans the first time. 
For example, denying a claim three or four times in the course of a 
year before granting the benefit sought allows for a total of five end 
product work credits to be counted for this one case, rather than 
promptly granting the benefit and taking only one work credit.
    In the view of The American Legion, the need for a substantial 
change in VBA's work measurement system is long overdue. A more 
accurate work measurement system would help to ensure better service to 
veterans. Ultimately, this would require the establishment of a work 
measurement system that does not allow work credit to be taken until 
the decision in the claim becomes final, meaning that no further action 
is permitted by statute whether because the claimant has failed to 
initiate a timely appeal or because the BVA rendered a final decision. 
We are pleased that this legislation would mandate such overdue changes 
to VA's work credit system and we fully support this provision. We are 
confident that removing the incentive for producing poor quality 
decisions by rewarding quality of work rather than quantity will result 
in an increase in accurate decisions, as well as claimant satisfaction, 
and will ultimately reduce the overall number of appeals.

                               H.R. 3249

To amend Title 38, United States Code, to increase burial benefits for 
        veterans, and for other purposes.
    In general, this bill seeks to:

    1.  Increase burial benefits for funeral expenses for eligible 
veterans from $300 to $1,270.
    2.  Increase burial benefits for funeral expenses for veterans who 
die as a result of a service-connected disability from $2,000 to 
$4,100.
    3.  Increase the plot allowance from $300 to $745.

    The American Legion fully supports this legislation. The American 
Legion would also like to see that the Department of Veterans Affairs 
be required to annually adjust burial allowances and the burial plot 
allowance for inflation by tying the increased allowances to the 
Consumer Price Index.

                               H.R. 3286

To amend Title 38, United States Code, to reduce the period of time for 
        which a veteran must be totally disabled before the veteran's 
        survivors are eligible for the benefits provided by the 
        Secretary of Veterans Affairs for survivors of certain veterans 
        rated totally disabled at time of death.
    The American Legion fully supports this legislation as it would 
eliminate current differences between various categories of veterans, 
for the purpose of survivors establishing entitlement to dependency and 
indemnity compensation (DIC) based on the length of time the veteran 
was rated totally disabled for service-connected disability immediately 
preceding death. The current differences between certain categories of 
veterans are arbitrary and this legislation, if enacted, would correct 
the inequities resulting from current statute by establishing a fair 
and consistent one-year period for all totally disabled veterans (due 
to service-connected disabilities) for the purpose of eligible 
survivors establishing entitlement to DIC.

                               H.R. 3415

To amend Title 38, United States Code, to authorize the placement in a 
        national cemetery of memorial markers for the purpose of 
        commemorating servicemembers or other persons whose remains are 
        interred in an American Battle Monuments Commission cemetery.
    The American Legion has no position on this bill. The American 
Legion does support the establishment of additional national and state 
veterans' cemeteries and columbaria wherever a need for them is 
apparent. Congress should provide required operations and construction 
funding to ensure VA burial in a national or state veterans' cemetery 
is a realistic option for veterans and their eligible dependents.

                               H.R. 1137

To amend Title 38, United States Code, to increase to $2,000 the amount 
        of the Medal of Honor special pension under that title and to 
        provide for payment of that pension to the surviving spouse of 
        a deceased Medal of Honor recipient.
    Since the enactment of the Medal of Honor special pension, Congress 
has seen fit to make increases to it in an effort to reflect the 
increased cost-of-living over time. Historically, The American Legion 
has supported such increases in the past. The American Legion therefore 
supports the intent of the bill to increase the amount of the Medal of 
Honor special pension to $2,000.
    The only concern that The American Legion has, as with all 
veteran's benefits, is that the special pension not be funded at the 
expense of other veterans' benefits.
CONCLUSION
    Thank you again, Mr. Chairman, for allowing The American Legion to 
present comments on these important bills. The American Legion welcomes 
the opportunity to work closely with you and your colleagues on these 
and any other issues that concern veterans in the future.
    This concludes my testimony.
                                ADDENDUM
 H.R. 3954, ``Providing Military Honors for our Nation's Heroes Act'' 
   and Draft Legislation ``The Veterans Quality of Life Study Act of 
                                 2007''
    Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity to present The American Legion's 
views on these various bills and those in this addendum. The American 
Legion commends the Subcommittee for holding a hearing to discuss these 
important and timely issues.

  H.R. 3954, ``Providing Military Honors for our Nation's Heroes Act''

    This bill would reimburse a member of a veterans' service 
organization or other organization approved by the Secretary of the 
Department of Veterans Affairs (VA) for transportation expenses and 
other expenses the Secretary determines are appropriate that are 
incurred in connection with the voluntary provision of a funeral honors 
detail at the funeral of a veteran, including a funeral honors detail 
requested by a funeral home.
    Due to the Global War on Terrorism (GWOT), the Department of 
Defense has been having difficulty fulfilling the requests for military 
funeral honors. This is because of the unprecedented role of the 
Reserves and the National Guard in GWOT. Veterans' service 
organizations, which have a proud history of providing such honors, 
have been doing their best to fill in the gap. However, the need is 
greater than it has ever been. Almost 2000 veterans a day pass away, 
most of them are World War II veterans. If they request military 
funeral honors, it is the duty of this Nation to fulfill the request.
    The American Legion supports this bill in the hopes that it will 
make providing these honors more possible by assisting those already 
overstretched volunteers.
Draft Legislation ``The Veterans Quality of Life Study Act of 2007''
    The American Legion does not have a position on this legislation, 
as it was not available for review at the time of this statement was 
prepared. However, The American Legion has been advocating that 
veterans of Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF) be tracked by VA as their own group and not be included 
in the current tracking of Gulf War veterans.
    Extended deployments, different types of exposures, and the nature 
of the conflict (where there are no longer any real frontlines) have 
made this generation's experience different to a large extent. This 
should warrant that they be tracked as a separate and different group 
than their first Gulf War comrades. This data will be critical in 
tracking the quality-of-life for the generation of wartime newest 
veterans.
Conclusion
    Thank you again, Mr. Chairman, for allowing The American Legion to 
present comments on these important bills. The American Legion welcomes 
the opportunity to work closely with you and your colleagues on these 
and any other issues that concern veterans in the future.
    This concludes my testimony.

                                 <F-dash>
                Statement of Bradley G. Mayes, Director,
  Compensation and Pension Service, Veterans Benefits Administration,
                  U.S. Department of Veterans Affairs
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify today on five bills. We did not receive the text 
of the Veterans Quality of Life Study Act of 2007 in sufficient time to 
provide our views today. We will address the bill in a subsequent 
letter to the Subcommittee.

                               H.R. 1137

    The first bill, H.R. 1137, would increase the monthly rate of the 
Medal of Honor special pension from $1,000 to $2,000 and would require 
VA to pay the special pension to the surviving spouse of a person who 
was awarded a Medal of Honor if the surviving spouse was married to 
that person either for at least one year or for any period of time if a 
child was born to them before or during their marriage. It would also 
prohibit a surviving spouse from receiving more than one Medal of Honor 
special pension based on multiple marriages, but would permit the 
special pension to be paid despite the remarriage of a surviving spouse 
if the remarriage occurred after the surviving spouse attained age 57 
or has been terminated by death or divorce, unless the Secretary 
determines that the divorce was secured through fraud or collusion. It 
would also permit the special pension to be paid to a surviving spouse 
if the surviving spouse ceases living with another person and holding 
himself or herself out openly to the public as that person's spouse. 
These provisions would apply to special pension payments made for 
months beginning after the date of enactment of the bill.
    VA does not oppose H.R. 1137, subject to Congress finding offsets 
for the increased costs. The benefit cost is estimated to be $11.9 
million during the first year, $58.8 million for five years, and $113.0 
million over ten years.

                               H.R. 3047

    Section 2 of H.R. 3047, the ``Veterans Claims Processing Innovation 
Act of 2007,'' would require VA to establish a work credit system for 
evaluating regional offices (ROs). Under the system, ROs would receive 
work credit for a claim only after the appellate period for the claim 
has expired or the Board of Veterans' Appeals issues a final decision 
on the claim.
    We do not support section 2 of H.R. 3047 for several reasons. 
First, the term ``work credit'' is undefined, and it is unclear whether 
and to what extent ``work credit'' would be relevant to the operation 
or funding of VA's regional offices. Moreover, withholding work credit 
until after the one-year appellate period has passed, or until the 
claim is finally decided by the Board of Veterans' Appeals (Board), 
will likely delay our ability to provide feedback to RO Directors, 
individual employees, and their supervisors. Moreover, once the work 
credit is assigned it is unlikely to produce any meaningful data about 
the current status of a particular regional office. Individual claims 
can be the subject of multiple remands by the Board or may be developed 
after the notice of disagreement is filed or post-remand. In such 
cases, work credit might not be assigned for more than a year after the 
issuance of the RO decision. Waiting for such an extended period is 
likely to conceal organizational weaknesses, such as in training or 
official guidance.
    Most VA claims are resolved well within one year after the claim is 
filed. In FY 2007, only 12 percent of claims resulted in the filing of 
a notice of disagreement, and substantive appeals were filed in only 5 
percent of cases. Yet, H.R. 3047 would require VA to wait one year 
before assigning credit for all cases, making it extremely difficult to 
monitor both VA's progress and the magnitude of the workload still 
awaiting action. As such it would provide a distorted picture of VA's 
performance and current needs. We must have accurate information for 
budgetary and long-range planning, resource allocation, workload 
management, and performance accountability. This proposal would render 
our basic management systems and principles ineffective.
    There are no mandatory costs associated with this section, as it 
has no effect on benefit entitlement. We have not had sufficient time 
to consider any potential discretionary costs, but cost is not our 
primary concern regarding this bill. Rather, we are concerned with how 
the bill would impede workload and performance management.
    Section 3 of H.R. 3047 would require VA to develop and maintain a 
claims processing system employing ``artificial intelligence'' that 
uses medical and military service data to generate recommended 
disability ratings. Under the bill, VA would be required to maintain 
one RO that would exclusively process claims electronically under this 
system, and that RO would be required to electronically scan all files 
created or submitted to that office in connection with a claim. VA 
would be required to submit quarterly reports to Congress on the status 
of the system during the period beginning 90 days after enactment of 
this section and extending through the first full fiscal year of 
operations of the RO employing this system.
    We do not support this section for many reasons. We believe that 
the use of rules-based and decision-support technologies can be greatly 
expanded in the near term to automate and streamline much of the claims 
process, and we are working aggressively toward that end. However, we 
do not believe it is feasible in the near future to entirely remove the 
human element from the decision process for all veterans' claims. We 
also do not believe it is possible to accomplish all of this 
simultaneously at one physical location. Because the programs we 
administer are national in scope, we further believe that ensuring 
consistency in outcome for veterans becomes much more difficult if 
processed using different systems and processes. We therefore believe 
it is better to approach the integration of new technologies, including 
rules-based processing, by systematically developing process component 
requirements through business modeling and introducing technology 
changes incrementally at a national level, rather than attempting to 
change all processes at a single regional office location.
    The administrative costs and burdens of establishing such a program 
would be significant.
    However, we note that VA is engaged in an aggressive planning 
effort to identify opportunities for using technology to improve 
efficiencies in claims processing. We are taking a multi-faceted 
approach to this important endeavor. Specific efforts we are currently 
exploring include:

    <bullet>  Expansion of the use of electronic records and image 
management technology. This includes the collection and use of both 
images and data to create a paperless claims file, and enhances our 
current paperless claims processing initiative.
    <bullet>  Investment in the development of claims processing 
assistance tools, such as rules-based engines, knowledge couplers, and 
evidence organization software. A recently published Request for 
Information (RFI) has yielded a variety of potential products that may 
meet our needs in this area. We are currently meeting with respondents 
and are encouraged by the potential we have seen in their 
presentations.
    <bullet>  Development of electronic processes for submission of 
applications for VA benefits. This will facilitate the receipt of 
electronic claim information and provide the initial data load into the 
claims processing systems. This is a critical first step in the 
paperless claims process, avoiding the receipt of paper and eliminating 
re-keying of data to begin the claims process.

    VA has received $20 million in a supplemental appropriation to 
support the initiatives described above. We believe that we will be in 
a position to execute necessary contracts to support implementation of 
our plan over the course of the next 12 months and will be able to 
report on our progress in approximately one year.
    There are no mandatory costs associated with this section, as it 
has no effect on benefit entitlement. Although we have not been able to 
estimate the administrative costs that would result from this provision 
in the time provided, they would clearly be substantial.
    Section 4 would require VA, in the case where a veteran claimant 
dies before completing the submission of a claim, to treat as the 
claimant (for purposes of completing the submission of the claim) the 
person who would receive any accrued benefits due to the veteran under 
38 U.S.C. Sec. 5121(a)(2).
    We do not support this proposal as drafted because the reference to 
``completing the submission of a claim'' is ambiguous and could be 
construed to apply to cases where there was no claim pending before VA 
when the veteran died. We cannot support legislation that would enable 
a survivor to advance a claim that the veteran did not properly present 
to VA before the veteran's death. Allowing a survivor to advance a 
putative or unfiled claim could enable survivors to file claims decades 
after the veteran's death. However, we would not object to legislation 
that would allow the addition of evidence to a claim that was pending 
before VA before the veteran's death, even if that claim had not been 
fully developed or adjudicated when the veteran died. Such legislation 
would be consistent with the recommendation by the Veterans Disability 
Benefits Commission to allow the veteran's survivors, but not a 
creditor, to pursue the veteran's due but unpaid benefits and any 
additional benefits by continuing the claim that was pending when the 
veteran died, including presenting new evidence not in VA's possession 
at the time of death. Because the language of section 4 is not clearly 
limited to cases involving claims pending before VA at death, we cannot 
support it.
    At this time, we are unable to estimate the cost of this section 
because we do not have sufficient data to determine the number of 
veterans who die with an ``incomplete'' claim (i.e., a claim that a 
veteran would have provided additional evidence for had he or she not 
died). Additionally, we cannot determine whether their claims would be 
granted with a compensable evaluation. Further, the amount of any 
accrued benefits payable would depend on the status of the substituted 
party (i.e., whether the substituted party is a surviving spouse, 
qualifying child, or parent; or is the person paying last expenses).
    Section 5(a) would require VA to contract with a private entity to 
evaluate those items in VA's annual report required by 38 U.S.C. 
Sec. 7734 that relate to training and performance assessment programs 
for employees responsible for matters relating to compensation or 
pension benefits. The private entity would be required to provide the 
results of the evaluation to VA not less than 180 days after the date 
of enactment of this bill. Under section 5(b), VA would be required to 
submit those results to Congress in the first annual report submitted 
pursuant to 38 U.S.C. Sec. 529 after VA receives those results, but not 
later than 180 days after the date of enactment of this bill. We note 
that there is an apparent inconsistency in the time requirements of 
section 5(b), because the timing of the first end-of-fiscal-year report 
under 38 U.S.C. Sec. 529 following VA's receipt of the evaluation 
results will most likely be beyond the 180-day period following 
enactment of this bill. Under section 5(c), VA would be required to 
report to Congress not later than 180 days after it submits the report 
required under section 5(b) on any actions it has taken or plans to 
take in response to the results of the evaluation.
    There has been significant attention given to VA's quality 
assurance and training programs in recent months. The Center for Naval 
Analyses reviewed VA's training efforts for the Veterans' Disability 
Benefits Commission and was highly complimentary of VA's training 
efforts in testimony before the Commission. Also, the Government 
Accountability Office, in a recent assessment of the Department of 
Defense's Disability Evaluation System, referenced the VA Compensation 
and Pension Quality Review program as a favorable model for adoption.
    There are no mandatory costs associated with this section of the 
proposal as it has no effect on benefit entitlement. It is estimated 
that discretionary costs for this legislation, based on previous 
contracts, would be approximately $2 million. Given the recent positive 
reviews of VA's quality assurance and training programs, VA does not 
see the need for this provision, and therefore, cannot support this 
provision.

                               H.R. 3249

    H.R. 3249 would increase several monetary burial benefits provided 
by VA. Section 2(a) would increase from $300 to $1,270 the benefit 
payable to reimburse expenses related to the burial and funeral of a 
veteran who dies due to a non-service-connected cause and would 
increase from $2,000 to $4,100 the benefit payable to reimburse 
expenses related to the burial and funeral of a veteran who dies due to 
a service-connected disease or injury. Section 2(b) would increase the 
plot allowance from $300 to $745. Section 2(c) would provide an annual 
cost-of-living (COLA) adjustment for both burial and funeral expenses 
and the plot allowance.
    VA has embarked upon an independent evaluation of VA's memorial 
benefits program. The main objectives of this evaluation are to 
determine the extent to which the VA memorial benefits program is 
achieving its expected outcomes and to identify the program's impact on 
the eligible veteran population. The evaluation will assess the 
appropriateness of VA's current memorial benefits and recommend changes 
to the program based on the data obtained and beneficiary needs. We 
expect this program evaluation to be completed by April 2008. We 
believe it would be premature to take a position on H.R. 3249 before we 
have completed our memorial benefits program evaluation. Accordingly, 
we defer taking a position on this legislation until we have had an 
opportunity to review the results of this program evaluation.We 
estimate benefit costs of this bill would be $154.5 million during the 
first year, $872 million over five years, and $2.0 billion over ten 
years.

                               H.R. 3286

    H.R. 3286 would reduce to one year the period of time during which 
a veteran must have been rated totally disabled due to service-
connected disability in order for the veteran's survivor to receive 
dependency and indemnity compensation (DIC) as if the veteran's death 
were service connected. Current law requires that the veteran have been 
rated totally disabled for a period of ten years or more immediately 
preceding death; or for a period of five years or more from the date of 
discharge or release from active duty until the date of death; or, in 
the case of a former prisoner of war, for a period of one year 
immediately preceding death.
    VA does not oppose H.R. 3286, subject to offsetting savings and 
subject to one amendment. However, we believe that the bill should be 
amended to require the veteran's total evaluation to be rated as 
permanent. Some total evaluations are temporary. For example, VA's 
schedule for rating disabilities requires total evaluations for one 
full year in specific situations, such as joint replacements. At the 
end of the one-year period, the veteran is re-examined and the 
disability reevaluated based on medical evidence showing residual 
disability. We do not support the payment of DIC based on a one-year 
temporary 100-percent evaluation.
    We estimate benefit costs of this bill would be $51.6 million 
during the first year, $859.1 million over five years, and $3.5 billion 
over ten years.

                               H.R. 3415

    H.R. 3415 would make ``servicemembers and others interred'' at an 
American Battle Monuments Commission (ABMC) cemetery eligible for 
placement of a memorial marker in a stateside cemetery. We support 
enactment of this bill.
    Currently, VA may furnish a memorial marker only for eligible 
individuals whose remains are unavailable because they: have not been 
recovered or identified; were buried at sea, whether by the 
individual's own choice or otherwise; were donated to science; or were 
cremated and the ashes scattered without interment of any portion of 
the ashes.
    The distance and cost of travel to visit an overseas gravesite is 
prohibitive for many survivors of servicemembers interred in AMBC 
cemeteries. Public Law 80-368 provided families a limited opportunity 
to repatriate the remains of servicemembers from overseas to United 
States soil. Since that law expired on December 31, 1951, ABMC has 
accommodated the families of servicemembers interred overseas with fee-
free passports for travel to the site, photographs of headstones or 
Tablets of the Missing on which the name of the deceased is inscribed, 
and an Honor Roll Certificate for Korean War casualties who are 
interred overseas, and by arranging for placement of gravesite floral 
decorations and photographs. Nonetheless, survivors may wish a more 
tangible and accessible remembrance of their deceased loved one than 
can be provided through these measures. Provision of a memorial marker 
in a stateside cemetery would address this desire. For this reason, we 
do not object to this legislation.
    Typically, in national cemeteries, memorial marker sections are 
established where interment of remains cannot be accommodated due to 
site conditions. Therefore, the provision of this benefit should not 
consume a substantial amount of space in national cemeteries that would 
otherwise be available for the interment of the remains of other 
eligible veterans and their family members. Thus, we anticipate that we 
could make a limited amount of space available in national cemeteries 
for placement of these markers without impacting gravesites for 
interment of remains.
    Although the bill's purpose statement and sectional title refer to 
placement of a memorial marker in a national cemetery, as written, H.R. 
3415 would also authorize VA to furnish upon request a memorial marker 
for placement in a state or private cemetery. State and private 
cemeteries would make their own determinations concerning placement of 
the memorial markers.
    ABMC estimates that 124,917 U.S. war dead are interred in 24 
permanent ABMC cemeteries on foreign soil. The average cost for 
furnishing a VA marker is $116. VA has no data upon which to calculate 
how many families of those interred in an ABMC cemetery would request a 
memorial marker, but we anticipate that the number would be small given 
the passage of time since the interment of these servicemembers.
    The ABMC should be consulted regarding its views on this bill and 
the coordination between the agencies that this bill would require.

                               H.R. 3954

    H.R. 3954 would authorize VA to reimburse a member of a veterans' 
service organization (VSO) or other organization approved by VA for 
appropriate transportation and other expenses incurred in connection 
with the voluntary provision of funeral honors detail at the funeral of 
a veteran, including funeral honors detail requested by a funeral home.
    We are concerned that reimbursement under H.R. 3954 may potentially 
duplicate expenses paid by the Department of Defense (DoD). DoD is 
required by 10 U.S.C. Sec. 1491(a) to provide, upon request, a funeral 
honors detail at the funeral of any veteran. These funeral honors are 
provided at national cemeteries by service members, as well as by VSOs 
and individual volunteers on behalf of DoD. VSOs and individual 
volunteers may also perform this service at State veterans cemeteries 
and private cemeteries. DoD is currently authorized by statute to 
reimburse persons who participate in a funeral honors detail, other 
than a service member who is not in a retired status or an employee of 
the United States, with transportation and expenses or a daily stipend. 
These volunteers maintain their own log of volunteer hours and 
expenses.
    VA does not support H.R. 3954 for the following reasons. To comply 
with H.R. 3954, the National Cemetery Administration (NCA) would have 
to add or reassign cemetery operations staff to manage and verify the 
time and attendance records of our volunteers, who devoted more than 
400,000 hours in FY 2007 to our cemeteries, and reimburse them for 
conducting this DoD-administered program. Also, because no funds for 
this purpose have been identified or included in any VA budget request, 
reimbursement for this unanticipated expense would most likely have to 
be provided from NCA's Operations and Maintenance Account, which would 
divert funds from the essential activities of providing burial 
operations and maintaining the cemeteries as national shrines. In 
addition, other VA volunteers who provide essential services at our VA 
medical centers, assist families at committal services, place graveside 
flags on Veterans Day and Memorial Day, and perform landscaping at VA 
national cemeteries may feel their service is less valued because they 
receive no reimbursement for their contributions.
    We have not had sufficient time to calculate the costs associated 
with this bill. We will address those costs in a subsequent letter to 
the Subcommittee.
    This concludes my statement, Mr. Chairman. I would be happy now to 
entertain any questions you or the other members of the Committee may 
have.

                                 <F-dash>
     Statement of Raymond C. Kelley, National Legislative Director,
                       American Veterans (AMVETS)
    Mr. Chairman and Members of the Subcommittee:
    Thank you for providing AMVETS (American Veterans) the opportunity 
to testify regarding this pending legislation. Each of these pieces of 
legislation proves the desire of this committee to honor and support 
America's veterans.
    The claims backlog that plagues the Veterans Benefits 
Administration (VBA) has been a great concern for veterans, and AMVETS 
is pleased to see the Committees on Veterans Affairs have taken the 
time to genuinely study this issue so long-lasting, effective changes 
can take place. H.R. 3047 takes steps to improve the VBA claims 
process. AMVETS believes one of the biggest issues with the claims 
process is the work credit system that is in place. The current system 
gives points to the Veteran Service Representative (VSR) for filing the 
claim. This is a very quantitative system that has led to incomplete or 
incorrect filing of claims, but as long as the claim has been filed the 
Regional Office (RO) receives credit for the claim. This system lends 
to the backlog, by claims being resubmitted by the veteran. H.R. 3047 
will assist in making sure the claims are accurate by the VSR because 
no credit will be given to the RO for the claim until the appellate 
period has expired. This should encourage the VSR to submit good claims 
so they are not remanded or denied. This will give veterans a more 
timely decision on their claim and decrease the backlog because fewer 
claims will be sent back through the system. In addition to the credit 
of claims modification, implementing electronic filing will ensure the 
loss of documentation is reduced and more easily accessed, and not 
having the beneficiary of any accrued benefits re-file a claim upon the 
death of a veteran will reduce redundancy in filing, and finally, 
providing evaluations and assessments of VBA employees will also 
increase the effectiveness and decrease the backlog of claims being 
filed by providing feedback on any trouble areas.
    The value of burial allowance benefits has seriously eroded over 
the years. While these benefits were never intended to cover the full 
costs of burial, they now pay only 6% of what they covered when the 
National Cemetery Administration (NCA) started paying the benefit in 
1973. H.R. 3249 would bring the benefit back to its original value. 
These increases would provide meaningful contributions to the burial 
cost of our veterans. AMVETS supports this legislation but would also 
suggest expanding eligibility to include all veterans who would be 
eligible for burial in a national cemetery, not just those who served 
during wartime.
    AMVETS supports H.R. 3286, which reduces the length of time in 
which a totally disabled veteran's benefits can be transferred to a 
survivor, which in turn will greatly reduce the financial burden on the 
family members who are left behind. These veterans suffer and die from 
conditions and disabilities they received while serving our country. 
The period of time these veterans are 100% disabled should not be a 
consideration for payment of a benefit.
    H.R. 3415 honors our servicemembers who have paid the ultimate 
sacrifice and were interred on foreign soil by providing a marker to 
commemorate their service in National Cemeteries. By including the 
servicemembers who were interred in an American Battle Monument 
Commission cemetery, a loophole would be closed that currently excludes 
a group of veterans which Section 2306 of Title 38 U.S.C. meant to 
include.
    As of July of this year there were only 109 living Congressional 
Medal of Honor recipients. The modest increase in special pension H.R. 
1137 suggests is justifiable for not only the sacrifices these heroes 
made, but for the lives they have saved. AMVETS supports H.R. 1137 in 
providing a $1000 per month increase in this special pension.
    Mr. Chairman, this concludes my testimony.

                                 <F-dash>
   Statement of Kerry Baker, Associate National Legislative Director,
                       Disabled American Veterans
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to submit for the record, the views of the Disabled 
American Veterans (DAV) on the various bills under consideration today. 
In accordance with its congressional charter, the DAV's legislative 
mission is focused on benefits and services provided to veterans 
because of service-connected disabilities. We are therefore pleased to 
support the bills insofar as they fall within that scope. The DAV does 
have mandates from its membership to support issues addressed within 
H.R. 3249 and H.R. 3286. However, the DAV does not have mandates from 
its membership regarding issues within H.R. 3047, H.R. 3415, and H.R. 
1137, but we have no objection to their favorable consideration as long 
as they support the DAV's mission.

                               H.R. 3249

    During the most recent DAV National Convention, our members voted 
to again adopt a long-standing resolution calling for an increase in 
burial allowance, which seems worthy of mention considering the 
objective of this commendable legislation. This bill is consistent with 
the recommendation of the The Independent Budget (IB) on this issue. 
The IB is a budget and policy document that sets forth the collective 
views of the DAV, American Veterans (AMVETS), the Paralyzed Veterans of 
America (PVA), and the Veterans of Foreign Wars of the United States 
(VFW).
    The ``Veterans Burial Benefits Improvement Act of 2007'' would 
increase the funeral expense allowance for a veteran's death, resulting 
from non-service connected causes, from $300 to $1,270, including those 
veterans whose death occurs in a Department of Veterans Affairs 
facility. This Act would also increase funeral expenses for veterans 
whose death results from service-connected causes from $2,000 to 
$4,100, and would increase burial plot allowances from $300 to $745. 
Additionally, this Act would allow for an annual adjustment in 
accordance with Section 5312(a) of title 38, United States Code, which 
equates to increases in accordance with title II of the Social Security 
Act (42 U.S.C. 401 et seq.) that is indexed to the cost of living. 
Overall, H.R. 3249 is very beneficial as it helps to ensure that 
veterans have access to a dignified burial that provides the level of 
honor they deserve. The DAV fully supports this beneficial legislation.

                               H.R. 3286

    During the most recent DAV National Convention, our members voted 
to adopt a resolution calling for a reduction in the 10-year period 
currently required for a veteran to receive compensation at the 100-
percent rate before a surviving spouse can, in most circumstances, 
receive dependency and indemnity compensation (DIC). This resolution is 
worthy of mention considering the objective of this commendable 
legislation.
    This legislation would reduce the period of time for which veterans 
must be rated totally disabled for purposes of DIC benefits under 
Section 1318(b) of Title 38, United States Code. If enacted, this 
legislation would reduce the current 10-year period to one year. In 
many situations wherein the Department of Veterans Affairs (VA) rates a 
veteran totally disabled, the veteran's household income is severely 
compromised due in large part to the veteran's spouse having to care 
for the veteran. In these circumstances, the spouse must usually give 
up his or her career. In the case of elderly veterans, the surviving 
spouse is unable to return to the workforce after the veteran's passing 
due to his/her own age and/or disability. In these circumstances, when 
the veteran does pass away, the surviving spouse is not entitled to any 
of the veteran's disability compensation, which can leave the surviving 
spouse destitute and bankrupt.
    Enactment of this legislation would prevent these inexcusable 
hardships from being forced onto a surviving spouse of a veteran whose 
service-connected disabilities rendered him or her totally disabled. 
Ultimately, those who stand on the battlefield and face the terrifying 
horrors of war, do so with the highest honor. Many are left totally 
disabled and must therefore depend on their spouses for care, and their 
government for income, in order to live their lives with a notion of 
that same honor. This legislation, which DAV fully supports, would 
ensure that totally disabled veterans' spouses continue to live with 
some of the honor their veteran spouses portrayed on the battlefield.

                               H.R. 3047

    The ``Veterans Claims Processing Innovation Act of 2007'' would (1) 
revise the work credit system for VA Regional Offices (ROs) of the 
Veterans Benefits Administration (VBA); (2) require VA to implement 
electronic processing of claims utilizing artificial intelligence; (3) 
substitute a surviving spouse of a veteran, whose submission of a claim 
for benefits is not complete at the time of his or her death, as the 
claimant for VA benefit purposes; and, (4) require the Secretary of 
Veterans Affairs (Secretary) to enter into a contract with a private 
entity for the purpose of evaluating the quality assurance of benefits 
programs that are required to be included, in accordance with Section 
7734 of title 38, United States Code, in the annual report of the 
Secretary.
    The DAV fully supports a VA work credit system wherein priority for 
rating accuracy and personnel accountability are at least on equal 
parity with that of productivity. We agree with the inference that VA's 
current work credit system is focused more on productivity than 
accuracy and accountability. However, DAV is concerned that this 
portion of the bill as currently written, portrays, with all due 
respect, a certain disconnect with the reality of how multifaceted the 
VA's benefits delivery system has become, particularly when considering 
the various types of claims a beneficiary may file, the various stages 
of development and decision-making within each claim, and the potential 
changes that can occur at any particular stage of the claim. We believe 
that merely withholding work credit until the appellate period expires 
or the Board of Veterans' Appeals issues a final decision on appeal, 
will not be able to account for accuracy at every stage in the process, 
particularly those non-rating actions performed by claims developers, 
adjudicators, authorizers, etc., whose work credit is fixed to the 
claim but not necessarily to the rating decision.
    Currently, VA utilizes over 50 pending end product codes \1\ for a 
multitude of actions. The number of end product codes may be further 
expanded by using ``modifiers'' that designate specific ``issues'' for 
types of claims within a certain broader category. The VA's end product 
codes are used in conjunction with its productivity and work 
measurement system. The productivity system is the basic system of work 
measurement used by Compensation and Pension (C&P) Service for report 
and tracking purposes. This system provides a comparison between work 
generated and available resources. The work measurement system provides 
a measure of effectiveness by comparing standard hours generated from 
completed end products, formal training time and other measured hours 
with available labor resources. \2\
---------------------------------------------------------------------------
    \1\ M21-4, App. A, Glossary of Terms and Definitions. Manpower 
Control and Utilization in Adjudication Divisions (Pending End Product: 
``A claim or issue on which final action has not been completed. The 
classification code identified refers to the end product work unit to 
be recorded when final disposition action has been taken.'').
    \2\ See M21-4, Ch. 5, Sec. 5.02.
---------------------------------------------------------------------------
    Quantitative measurement is also a tool utilized in preparing 
budget forecasts and in distributing available staffing. Quantitative 
and productivity measurement are also tools used in comparing and 
tracking employment of resources. Both productivity measurement and 
work measurement are tools available to management for this purpose. 
Quantitative measurement also allows Central Office and Area Offices to 
compare stations and to track both local and national trends. 
Productivity measurement and work measurement are complementary 
measurement systems that each depend, in part, on VA's end product code 
system. The end product code system is further used in determining work 
credit provided to VA's employees.
    Additionally, VA's end product codes are also utilized in the VA's 
Systematic Technical Accuracy Review (STAR) program. The STAR system is 
VBA's national program for measuring compensation and pension claims 
processing accuracy. In the STAR program, a sample is drawn each month 
from a regional office workload divided between rating, authorization, 
and fiduciary end products. For example, a monthly sample of ``rating'' 
related cases generally requires a STAR review of ``10'' rating-related 
end product. \3\ Therefore, one can easily distinguish the significant 
importance placed on productivity over and above the priority placed on 
accuracy. For this reason, DAV fully supports the intent of the 
legislation at hand.
---------------------------------------------------------------------------
    \3\ See M21-4, Ch. 3, Sec. 3.02.
---------------------------------------------------------------------------
    However, we feel the legislation, as written, does not take into 
account the significant interplay between VA's work credit system, 
which utilizes completion of pending end product codes, and the 
foregoing measurement systems and STAR program, which also utilize 
completion of pending end product codes. Nonetheless, because of the 
positive intent of this legislation, the DAV would welcome the 
opportunity to discuss this issue in more depth. We would look forward 
to working hand-in-hand with Congress, as well as any necessary VA 
officials, in order to help achieve an outcome that satisfies the 
intent of Congress, improves the lives of disabled veterans, and 
assists VA in the success of each.
    Regarding the implementation of an electronic claims processing 
system using artificial intelligence, the DAV is not opposed to VA 
utilizing a test facility to begin implementation of artificial 
intelligence on an experimental and limited basis. The DAV's support on 
this issue at present, is limited to the foregoing on this novel idea. 
Further, the DAV would appreciate an opportunity to participate in any 
effort to develop such technology, and would further appreciate an 
opportunity to participate in the experimental phase once such 
technology has been introduced.
    The DAV does not oppose legislation that would allow a veteran's 
surviving spouse to be substituted as the VA claimant when a veteran's 
death occurs prior to him or her filing a complete claim for benefits. 
Likewise, the DAV does not oppose legislation that would strengthen the 
VA's training and assessment programs as the complexity of VA's 
benefits delivery system is continuously evolving into a complex legal 
structure. The DAV would welcome an opportunity to consult with VA and/
or any private entity responsible for development of such program.

                           H.R. 1137 and 3415

    The purpose of H.R. 1137 is to amend Section 1562(a) of title 38, 
United States Code, to increase the amount of the Medal of Honor 
special pension from $1,000 to $2,000. The DAV does not oppose 
increasing this special pension rate, particularly for those wartime 
veterans whose acts of uncommon bravery and selfless sacrifice have 
earned them the highest possible military honor of this great Nation.
    The DAV does not oppose H.R. 3415. This bill would authorize the 
placement of memorial markers in a national cemetery for commemorating 
servicemembers or other persons whose remains are interred in an 
American Battle Monuments Commission cemetery.

                               H.R. 3954

    The ``Providing Military Honors for Our Nation's Heroes Act'' 
would, if enacted, authorize the Secretary to reimburse a veterans' 
service organization, or other organization approved by the Secretary, 
for transportation and other expenses which the Secretary determines 
appropriate when such expenses are incurred in connection with details 
for voluntary funeral honors. Under this legislation, the Secretary 
would be responsible for promulgating regulations for carrying out 
these functions.
    The bill would assist volunteers across the Country that routinely 
go above and beyond the call of duty to ensure their fellow veterans 
are buried with the honor they deserve. These volunteers cover much of 
the expenses associated with these honors on their own. The DAV 
believes that this legislation would help to ensure more veterans 
across this nation receive access to military funeral honors upon their 
death than do currently. Therefore, the DAV does not oppose this 
legislation as it rightfully helps to provide the kind of final 
farewell our nation's veterans deserve.

             The Veterans Quality of Life Study Act of 2007

    The ``Veterans Quality of Life Study Act of 2007'' (the ``Act'') 
would (1) require the Secretary to enter into a contract with the 
Institute of Medicine (IOM), or similar entity, to conduct a study 
analyzing the extent to which VA's Schedule for Rating Disabilities 
(the ``Rating Schedule'') accounts for, or should be amended or 
expanded to account and compensate for loss of quality of life due to a 
veteran's service-connected disability or disabilities; (2) replace a 
veteran's beneficiary as the claimant for purposes of claims pending at 
the time of the veteran's death; (3) modify the required annual 
workload report of the Court of Appeals for Veterans Claims (Court); 
and (4) require the General Services Administration (GSA) to report on 
the feasibility of leasing additional space for the Court within its 
current location, the impact of such action upon the other tenants 
within the Court's current location, and based on such impact, the cost 
of constructing a new facility as the Veterans Courthouse and Justice 
Center.
    The DAV does not oppose the Act's requirement that the Secretary 
contract with an entity, preferably the IOM, to conduct a quality of 
life study. While the DAV does not have a resolution from its members 
on this specific topic, we do however have two resolutions that would 
apply, but only in certain worst-case scenarios. DAV resolution number 
056 opposes any change that would, inter alia, redefine service-
connected disability. DAV resolution 061 opposes any recommendation by 
any commission to reduce or eliminate benefits for disabled veterans. 
However, the likelihood of the Act imposing such radical suggestions 
seems rather miniscule.
    The DAV also noted that the ``Veterans' Disability Benefits 
Commission,'' (the ``Commission'') established by Public Law 108-136, 
the National Defense Authorization Act of 2004, suggested that VA 
compensate service-connected disabled veterans for, inter alia, the 
impact disabilities have on a veteran's quality of life. The Commission 
listed the following as one of its eight principles that should guide 
the development and delivery of future benefits for veterans and their 
families: ``Benefits and services should be provided that collectively 
compensate for the consequence of service-connected disability on the 
average impairment of earnings capacity, the ability to engage in usual 
life activities, and quality of life.'' The DAV supports the 
Commission's recommendation and therefore does not oppose the Act's 
requirement for a quality of life study insofar that it complies with 
the recommendation of the Commission. The DAV also appreciates the 
Committee's willingness to take into account advice from veterans' 
service organizations on how to manage any changes for veterans' 
disability compensation. We look forward to actively contributing to 
the Committee's work on improving disability benefits for all veterans.
    Section three of the Act would allow a beneficiary to replace a 
veteran as the claimant for VA purposes when the veteran dies prior to 
the complete adjudication of a pending claim for benefits from the VA. 
This legislation is similar, although not identical, to section four of 
the foregoing legislation, H.R. 3047. The DAV is not opposed to this 
legislation.
    Many veterans' claims, especially those in appellate status, linger 
for years before final and favorable disposition. Currently, when 
filing a claim for accrued benefits following the death of a veteran 
with a pending claim before the VA, a surviving spouse or other 
beneficiary must start the VA's long procedural quagmire of its claims 
process from the beginning. Such requirement disregards how long the 
claim has been pending or how close the VA is to completing the claim. 
For decades, the VA's archaic requirement that a surviving spouse 
recreate the proverbial wheel of a veteran's claim upon his or her 
death has caused countless surviving spouses innumerable hardships--
many of which would be eliminated by this beneficial legislation.
    Section four of the Act would require the Court to amend its annual 
report to Congress summarizing its workload. While the DAV does not 
have a resolution on this specific topic concerning the Court, we do 
not oppose this legislation.
    As with the VA, the greatest challenge facing the Court is the 
backlog of appeals. Due to long delays in claims processing at the VA, 
it can take years for appeals to reach the Court. A significant number 
of disabled veterans are elderly and in poor health, and many do not 
live to witness resolution to their claims.
    Over the years, the Court has shown a reluctance to reverse errors 
committed by the Board. Rather than addressing an allegation of error 
raised by an appellant, the Court has a propensity to vacate and remand 
cases to the Board based on an allegation of error made by the 
Secretary of Veterans Affairs (Secretary) for the first time on appeal, 
such as an inadequate statement of reasons or basis in the Board 
decision. Another example occurs when the Secretary argues, again for 
the first time on appeal, for remand by the Court because VA failed in 
its duty to assist the claimant in developing the claim notwithstanding 
the Board's express finding of fact that all development is complete. 
Such actions are particularly noteworthy because the Secretary has no 
legal right to appeal a Board decision to the Court. \4\
---------------------------------------------------------------------------
    \4\ 38 U.S.C.A. Sec. 7252(a) (West 2002) (``The Court of Appeals 
for Veterans Claims shall have exclusive jurisdiction to review 
decisions of the Board of Veterans' Appeals. The Secretary may not seek 
review of any such decision.'')
---------------------------------------------------------------------------
    Further, once the Court remands a case based on error by the Board, 
unlawfully alleged by the Secretary, the Court will generally decline 
to review alleged errors raised by an appellant that actually serve as 
the basis of the appeal. Instead, the Court remands the remaining 
alleged errors on the basis that an appellant is free to present those 
errors to the Board even though an appellant may have already done so, 
leading to the likelihood of the Board repeating the same mistakes on 
remand that it had previously. Such remands leave errors by the Board, 
and properly raised to the Court, unresolved; reopens the appeal to 
unnecessary development and further delay; overburdens a backlogged 
system already past its breaking point; exemplifies far too restrictive 
and out-of-control judicial restraint; and inevitably requires an 
appellant to invest many more months and perhaps years of his or her 
life in order to receive a decision that the Court should have rendered 
on initial appeal. As a result, an unnecessarily high number of cases 
are appealed to the Court for the second, third, or fourth time.
    In addition to postponing decisions and prolonging the appeal 
process, the Court's reluctance to reverse Board decisions provides an 
incentive for the VA to avoid admitting error and settling appeals 
before they reach the Court. By merely ignoring arguments concerning 
legal errors rather than resolving them at the earliest stage in the 
process, the VA contributes to the backlog by allowing a greater number 
of cases to go before the Court. If the Court would reverse decisions 
more frequently, we believe the VA would be discouraged from standing 
firm on decisions that are likely to be overturned or settled late in 
the process.
    Therefore, to provide Congress with an accurate measure of the 
Court's performance, section 4(a)(4) of the Act should be amended to 
require the Court to submit an annual report to Congress that includes: 
(1) The number of BVA decisions affirmed; (2) the number of 
dispositions based on (a) joint motion for remand, and (b) settlement; 
(3) the number of dispositions both reversed and remanded by a single 
judge decision; and (4) the number of voluntary dismissals. The draft 
legislation should also be amended to require the Court's annual report 
to include the number of single-judge decisions by ``each'' judge, the 
number of cases appealed to the Court more than once, and the number of 
appellants who die while awaiting a decision from the Court. This 
additional data will allow Congress to more accurately assess the 
Court's workload and its need for additional resources.
    Actions that fall under category two and four are of an 
administrative nature and are generally accomplished by the Clerk of 
the Court. The Court's judges must accomplish categories one and three, 
thus presenting the information in this suggested format would give 
Congress a clearer picture of (1) the Court's accomplishments and (2) 
its failures.
    We appreciate the Committee's interest in these issues, and we 
appreciate the opportunity to present the DAV's views, which we hope 
will be helpful.

                                 <F-dash>
Statement of Rose Elizabeth Lee, Chair, Government Relations Committee,
                    Gold Star Wives of America, Inc.
        ``With malice toward none; with charity for all; with firmness 
        in the right, as God gives us to see right, let us strive to 
        finish the work we are in; to bind up the nation's wounds, to 
        care for him who has borne the battle, his widow and his 
        orphan.''
          . . . President Abraham Lincoln, Second Inaugural Address, 
        March 4, 1865
INTRODUCTION
    The Gold Star Wives of America, Inc. was founded in 1945 and is a 
Congressionally chartered service organization comprised of surviving 
spouses of military servicemembers who died while on active duty or as 
a result of a service-connected disability. We could begin with no 
better advocate than Mrs. Eleanor Roosevelt, newly widowed, who helped 
make GSW a truly national organization. Mrs. Roosevelt was an original 
signer of our Certificate of Incorporation as a member of the Board of 
Directors. Many of our current membership of over 10,000 are the widows 
of servicemembers who were killed in combat during World War II, the 
Korean war, the Vietnam War and the more recent wars including the one 
we are currently in.
    In this testimony, we are delineating the views of Gold Star Wives 
on H.R. 1137, to increase to $2,000 the amount of the Medal of Honor 
special pension under that title and to provide for payment of that 
pension to the surviving spouse of a deceased Medal of Honor recipient, 
H.R. 3047, to improve the processing of claims for benefits 
administered by the Secretary of Veterans Affairs, and H.R. 3286, to 
reduce the period of time for which a veteran must be totally disabled 
before the veteran's survivors are eligible for the benefits provided 
by the Secretary of Veterans Affairs for survivors of certain veterans 
rated totally disabled at time of death--topics of the November 8, 2007 
hearing before this Subcommittee. One basic point we would like to make 
at the outset across all these pieces of legislation is that it is 
important that Congress set its priorities from the perspective of the 
``big picture'' so survivor benefits are not fragmented by funding as 
opposed to merit, and that benefits for a small group do not override 
the legitimate needs and rights of a larger group, simply because the 
cost is lower.
    H.R. 1137: We are a fortunate country to see many heroes throughout 
various walks of life and one great list of heroes is that of Medal of 
Honor recipients. We want nothing stated here to be misconstrued as not 
paying the appropriate honor to these servicemen who served their 
country so valiantly. We urge you to look closely at the proportionate 
amounts which widows of service-related deaths receive. The DIC is 43% 
of disability compensation, not the 100% for the Medal of Honor 
recipient. H.R. 1137 provides for a special pension and does not offset 
SBP, yet for non MOH recipient survivors still must undergo a reduction 
of SBP by DIC.
    GSW is requesting a modest increase in the DIC benefit from 43% to 
55% of the VA Disability Compensation, but Social Security survivor 
payments of 100% and this legislation both seem to indicate that a fair 
standard would be 100% of the VA Disability Compensation to allow the 
surviving spouse to retain financial stability.
    It should be noted that many of the surviving spouses of severely 
disabled veterans spent many years of their lives as full-time, around-
the-clock caregivers. These caregivers had no opportunity to establish 
a career in which they earned a living wage and retirement benefits. In 
addition to the fact that many of these caregivers are now too old to 
embark upon a significant career, it is well documented in medical 
literature that caregiving does significant damage to the health of the 
caregiver. These caregivers saved the VA millions of dollars by doing 
this caregiving for their injured or disabled spouses. By doing the 
caregiving for the veteran, these spouses also served their country. 
When the injured spouse dies they deserve enough income to provide them 
with a decent standard of living. We present this to seek equity for 
the entire class of survivors.
    H.R. 3047: We encourage that section 4 specifically state, to avoid 
confusion, that a surviving spouse not only have the right to complete 
submission of a claim but also be able to continue with a claim already 
in process at the time when a veteran dies.
    H.R. 3286: The greatest interest of the Gold Star Wives rests with 
this legislation, which would reduce, from ten years to one, the amount 
of time a veteran must be rated totally disabled before his or her 
surviving dependents can receive certain death benefits. We are 
concerned that the way the bill is written, it does not mention the 
fact that DIC eligibility can be derived when the veteran dies of a NON 
service-connected disability. It makes the reader think that they only 
have to be rated totally disabled one year at time of death, without 
mention of how the death occurs. Hence, this DIC payment acknowledges a 
``non service'' connected death with the same recognition as an active 
duty death or service connected disability.
    VA Dependency and Indemnity Compensation (DIC) payments are 
provided as ``indemnity'' for the survivors of those who died on active 
duty or as the result of a service connected disability. Indemnity is 
often used as a synonym for compensation or reparation. Compensation 
implies a sum paid to make good the loss of another (service related 
deaths) without regard to the payer's identity, or their reasons for 
doing so. An indemnity is a sub-species of compensation, in the same 
way that damages and reparations are.
    Gold Star Wives of America believes that DIC benefits should be 
awarded to the surviving spouse only when a servicemember dies on 
active duty or when a veteran or retired servicemember dies due to a 
service connected disability or illness.
    The survivors of a veteran who dies of a non-service connected 
cause are already eligible to receive DIC if the veteran was rated with 
a 100 percent service connected disability for 10 years, rated with a 
100 percent service connected disability for 5 years from date of 
discharge from the military, or if the veteran is a former POW who died 
after September 30, 1999.
    Spousal survivor benefits have always stemmed from the benefits and 
rating of the veteran. Awarding DIC to survivors of those who die of a 
non-service connected cause creates a whole new and expensive class of 
survivor benefits. It would be far better to review the veteran's 
medical records and death certificate and take action to have the 
veteran's rating changed or the death certificate corrected.
    Providing DIC to a surviving spouse of a veteran due to a non-
service connected death lessens and diminishes the dignity, respect, 
and value placed on the supreme sacrifice of an active duty death or a 
death due by a service connected disability.
    To increase benefits for survivors of non-service connected 
veterans of today while leaving many survivors of veterans of previous 
wars in poverty situations is unconscionable.
    If Congress is entertaining the idea of providing DIC to the 
survivors of veterans whose death was not due to a service connected 
disability, GSW asks why Congress has not found the money to remove the 
DIC offset to the Survivor Benefit Plan (SBP). SBP is a survivor 
benefit, like life insurance, paid to the survivors of retired military 
personnel who purchased this benefit with steep premiums and to the 
survivors of military personnel who died on active duty.
CONCLUSION
    We appreciate this opportunity to comment on these three bills and 
how our perspectives have shed some light on how the Committee should 
move forward.

                                 <F-dash>
                   Statement of Hon. James Langevin,
      a Representative in Congress from the State of Rhode Island
    Chairman Hall, Ranking Member Lamborn and distinguished Members of 
the Subcommittee, thank you for having this important hearing today, 
and especially for the opportunity to discuss H.R. 3415, a bill that 
would authorize memorial markers in a national cemetery to commemorate 
servicemembers buried in an American Battle Monuments Commission 
cemetery.
    As Members of Congress, we all have the great opportunity to hear 
stories of duty and honor from our constituents. I had such a chance 
right after Memorial Day in 2004 when I received a letter from Henry 
Stad, a resident of Rhode Island and a veteran of World War II. Mr. 
Stad asked that I sponsor a bill that would allow family members of 
servicemembers that were killed in action and buried overseas to be 
able to request a burial plaque to be set in a family burial plot in 
the United States. I was happy to look into this request from a man who 
gave so much to his country.
    Mr. Chairman, as you know, the United States currently has 24 
permanent overseas burial grounds that are the final resting place for 
nearly 125,000 of the brave men and women who died serving our country. 
These sites are the responsibility of the American Battle Monuments 
Commission and are a wonderful tribute to those who sacrificed for our 
Nation. However, the Department of Veterans Affairs maintains that 
because these graves can be visited, there is no need to provide 
families at home with a memorial marker for their deceased loved ones 
buried there.
    As a result, I introduced a bill that will help families 
memorialize those who died in service to our country and are buried in 
cemeteries overseas. According to the Department of Veterans Affairs, 
those servicemembers whose remains are classified as ``unavailable for 
burial'' are eligible for government-provided memorial markers or 
headstones. While this classification includes those whose remains have 
not been recovered or who were buried at sea, there is one glaring 
exception to this definition--those it does not permit markers to be 
issued in cases when servicemembers died fighting for freedom abroad 
and were laid to rest there.
    Families are proud of these courageous men and women who answered 
the call to protect our country and then paid the ultimate price. 
Unfortunately, for many families, a trip abroad to visit their loved 
ones is not possible due to finances or old age. A memorial marker is a 
way to keep the memory of their loved one alive, while also teaching 
younger generations about sacrifice. We should not deny the families of 
these courageous men and women the ability to obtain memorial markers 
when we already do it for so many others. To correct this, my 
legislation will add overseas burials to the VA's ``unavailable for 
burial'' classification and finally let these men and women be 
memorialized by their families here at home.
    Mr. Chairman, in closing, I urge you to help memorialize those that 
accepted the call to protect our country. Thank you again for this 
opportunity, and I look forward to working with you in serving our 
veterans.

                                 <F-dash>

                             National Funeral Directors Association
                                               Washington, DC 20002
                                                   November 8, 2007

Hon. John Hall
United States House of Representatives
Chair, Committee on Veterans' Affairs Subcommittee on Disability 
    Assistance and Memorial Affairs
335 Cannon House Office Building
Washington, D.C. 20515

RE: H.R. 3249--Veterans Burial Benefits Improvement Act of 2007 and 
H.R. 3954-- Providing Military Honors for our Nation's Heroes Act.

Dear Chairman Hall:

    With a membership that exceeds 13,000 funeral homes and over 21,000 
licensed funeral directors and embalmers in all 50 states, the National 
Funeral Directors' Association (NFDA) represents all funeral directors 
in the United States.
    As you know, Chairman Filner has introduced H.R. 3954; this bill 
would authorize the Secretary of Veterans Affairs to reimburse certain 
volunteers who provide funeral honors details at the funerals of 
veterans. The NFDA has a great interest in veterans' burial benefits as 
our members provide both funeral and burial services to our Nation's 
veterans on a daily basis. The NFDA supports the reimbursement of 
volunteers who provide funeral honors for our Nation's fallen heroes as 
set forth in H.R. 3954.
    The NFDA would also like to express our support for H.R. 3249--
Veterans Burial Benefits Improvement Act of 2007. This important 
legislation, which was introduced by Subcommittee Member Rep. Shelley 
Berkley, seeks to increase burial benefits for Veterans from $300 to 
$1,270; it also seeks to raise the plot allowance for Veterans from 
$300 to $745. Our members strongly believe that the surviving spouses 
and dependents of military personnel who died while in active military 
service and the survivors of veterans who died after active service 
deserve an increase in burial and funeral expenses, and plot 
allowances, as the current allowances are insufficient. NFDA supports 
an increase in burial benefits for Veterans.
    The National Funeral Directors' Association appreciates the 
opportunity to comment on H.R. 3249 and H.R. 3954. If you have any 
questions, or if the NFDA can provide further information, please 
contact me at 202-547-0877.

            Thank you for your consideration.
                                                      Lesley Witter
                                      Director of Political Affairs
cc: Chairman, Bob Filner and Representative Shelley Berkley

                                 <F-dash>
        Statement of Ronald B. Abrams, Joint Executive Director,
                National Veterans Legal Services Program
    Mr. Chairman and Members of the Committee:
    I am pleased to have the opportunity to submit this testimony on 
behalf of the National Veterans Legal Services Program (NVLSP). NVLSP 
is an independent, non-profit veterans service organization that has 
been assisting veterans and their advocates for 27 years. We publish 
numerous advocacy materials, recruit and train volunteer attorneys, 
train service officers from veterans service organizations, such as The 
American Legion and Military Order of the Purple Heart, in veterans 
benefits law, and conduct quality reviews of the VA regional offices on 
behalf of The American Legion. NVLSP also represents veterans and their 
families in claims for veterans benefits before VA, the U.S. Court of 
Appeals for Veterans Claims (CAVC), and other federal courts.
    My testimony today will focus on H.R. 3047 which, in Section 2 
would change when VA regional offices (VAROs) can claim work credit. 
Also, I would like to comment on section 4 of H.R. 3047 which mandates 
that, in the event of the veteran's death, the person who would be 
entitled to accrued benefits would be treated as the claimant.
ESTABLISHMENT OF A WORK CREDIT SYSTEM FOR VA REGIONAL OFFICES
    NVLSP supports this bill because the current VA work credit system 
prevents the fair adjudication of many claims for VA benefits. The 
current VA work credit system is an abomination that needs to be 
overhauled because the current system rewards VA managers and 
adjudicators who claim multiple and quick work credit by not complying 
with the statutory duties to assist claimants obtain evidence that 
would substantiate their claims and notify claimants of what evidence 
would substantiate their claims. \1\
---------------------------------------------------------------------------
    \1\ 38 U.S.C. Sec. Sec. 5103A, 5103(a).
---------------------------------------------------------------------------
Background
    No matter how much the average VA employee tries to help the client 
population, the VA decisionmaking culture, created by the VA work 
measurement system, prevents many VA adjudicators from doing a good 
job. The VA has created a work measurement system for deciding 
critically important claims that is driven by weighty incentives to 
decide claims quickly. How the VA measures its work and evaluates the 
performance of its employees has had a major impact on the adjudication 
of claims for veterans benefits.
    Each year, after a complicated process involving the executive 
branch and Congress, the VA is given its budget. The budget can be 
defined as the resources available to the Secretary of Veterans Affairs 
to be used to accomplish the mission of the VA. Managers at different 
levels within the VA are then given their allocation from the overall 
VA budget. This allocation is determined by the workload and 
performance of the various VA components. For example, the money 
budgeted to a VARO determines how many workers can be hired or fired, 
how equipment is maintained, and what new equipment can be purchased.
    Claims received in VARO are described as ``pending issues.'' These 
claims are assigned an ``end product code,'' alternatively described by 
the VA as a unit of work. When final action is taken on a pending 
claim, or pending issue, the regional office (and eventually the VA) 
receives a credit. \2\
---------------------------------------------------------------------------
    \2\ In general, see VA Manual M21-4, Manpower Control and 
Utilization in Adjudication Divisions.
---------------------------------------------------------------------------
    End products are assigned values based on the average number of 
work hours it takes an employee or group of employees to complete all 
action necessary for that type of claim. Each end product code has a 
different value. For example, VA managers receive more credit for work 
completed on an original claim than they do for adjusting the income of 
a current pension beneficiary. No matter how much work the VARO does on 
an individual claim, however, it receives as credit only the value that 
is provided for the end product code assigned to that particular type 
of pending claim. Therefore, VA managers receive the same credit 
whether or not the claim is granted or denied or whether the claim 
takes the VARO one day or two years to decide.
    VA manuals describe the end product system as a ``management tool'' 
and indicate that its measure should not be used to evaluate individual 
performance. As is the case with many management information systems, 
however, the measurement system tends to drive what and whom it 
measures, rather than the converse. VA managers are evaluated by how 
many end products they produce, how quickly they can take credit for 
end products, how many employees they need to produce these end 
products, and lastly, the quality of the work in the office they 
manage. Because it is in the best interest of the VA managers to 
complete as many cases as quickly as they can, the interests of VA 
managers in many cases stands in opposition to the interests of 
claimants for VA benefits.
    Responsibilities of VA managers that protect the fairness of the 
adjudicatory process--such as ``control'' of claims, supervisory review 
of unnecessarily delayed claims, thorough development of the evidence 
needed to decide a claim properly, recognition of all of the issues 
involved, provision of adequate notice, documentation that notice was 
given, and careful quality review--all adversely affect the 
productivity and timeliness statistics (that is, how many decisions on 
claims are made final within a particular period of time) for the VA 
manager. Consequently, proper attention by VA managers to their legal 
obligations very often adversely affects the statistics upon which 
their performance is rated.
The Impact of Judicial Review
    The VA claims processing (or claims adjudication) system has been 
exposed by judicial review. To say there is a crisis in VA claims 
adjudication is an understatement. Statistics from the Board of 
Veterans' Appeals (BVA) and the U.S. Court of Appeals for Veterans 
Claims (CAVC) show that nationally, for FY 2007, over 56 percent of all 
appeals decided by the BVA were reversed or remanded and over 63 
percent of CAVC decisions on the merits were reversed, or remanded. In 
fact, some VAROs were even worse than the national average. Over 60 
percent of the appeals from the New York RO and over 62 percent of the 
appeals from the St. Petersburg Florida RO were reversed or remanded by 
the BVA.
    Based on the experience of NVLSP (over 10 years of NVLSP quality 
reviews of approximately 40 different VAROs for The American Legion 
combined with extensive NVLSP representation before the CAVC), most of 
the most egregious VA errors are a result of premature adjudications. 
For example, many errors identified by the Legion/NVLSP quality review 
teams reveal that VA adjudicators failed to even try to obtain evidence 
that could substantiate the claim, and incorrectly accepted and 
prematurely denied claims based on inadequate evidence (especially 
inadequate VA medical examinations). \3\
---------------------------------------------------------------------------
    \3\ Many of the pro bono attorneys NVLSP trains and mentors ask why 
the VA would adjudicate claims when it is obvious that additional 
development of evidence is required.
---------------------------------------------------------------------------
    I want to emphasize that most premature VA adjudications are caused 
by ROs seeking work credit. If the claimant should appeal, the RO can 
earn another work credit for work to process the appeal. Here is an 
example of how this system can be manipulated. Suppose:

    <bullet>  In January 2005, a veteran files a claim for service 
connection for post traumatic stress disorder (PTSD). The veteran 
indicates he has symptoms of PTSD and alleges that he engaged in combat 
during service. (In order to obtain service connection for PTSD the 
evidence must show that the veteran suffers from PTSD, that he or she 
experienced a stressor (a traumatic event) in service, and that the 
stressor is linked by a medical expert to the stressful event.) \4\
---------------------------------------------------------------------------
    \4\ 38 C.F.R. Sec. 3.304(f).
---------------------------------------------------------------------------
    <bullet>  Before the RO verifies that the veteran engaged in 
combat, in an effort to obtain quick work credit, the RO schedules a VA 
examination (VAE).
    <bullet>  The examination is promptly conducted and the VA medical 
examiner, although noting symptoms of PTSD, refuses to diagnose PTSD 
because the veteran's alleged stressor is not verified by the evidence 
of record.
    <bullet>  The RO then denies the claim because the veteran does not 
have the claimed condition. An end product (work credit) is then taken 
by the RO in April 2005.
    <bullet>  In the same month, the veteran is notified by the VA that 
his claim is denied because he does not have PTSD. The veteran, in an 
attempt to prove his claim, hires a private psychiatrist who accepts 
the veteran's allegation regarding the stressor and diagnoses PTSD. The 
veteran, after paying the doctor, then submits this private medical 
opinion to the RO (within the 1-year appellate period).
    <bullet>  Upon receipt of the new evidence the RO sets up a new end 
product but promptly denies the claim because the RO finds there is 
insufficient evidence of the alleged stressor. The RO then informs the 
veteran of its decision and takes credit for a second end product in 
July 2005.
    <bullet>  Within one year of the original denial, in December 2005, 
the veteran submits several ``buddy statements'' (lay statements) that 
support the conclusion that he engaged in combat. The RO then 
erroneously denies the claim because in the opinion of the RO, the 
first VA examination was more probative than the private medical 
opinion and therefore the veteran does not suffer from PTSD. The RO 
takes a third end product in March 2006.
    <bullet>  In March 2006, the veteran submits a notice of 
disagreement. The RO establishes another end product and when the case 
is reviewed by a Decision Review Officer (a VA hearing officer) a new 
VA examination is ordered. The DRO informs the VA examiner to accept 
the fact that the veteran engaged in combat during service. The VA 
examiner then concludes that the current PTSD is linked to the combat 
the veteran experienced in service. This process takes quite a while.
    <bullet>  The DRO, in January 2007, grants service connection for 
PTSD retroactive to January 2005. A fourth end product is then claimed 
by the RO.

    The VARO was really entitled to only one end product for this work. 
But, because of premature adjudications and flat-out errors in judgment 
by the RO, the RO was able to claim four work credits. The RO was also 
able to show that these four actions were completed in a faster time 
than what it really took to adjudicate this claim. From the veteran's 
point of view it has taken the VA 24 months to adjudicate his claim. 
However, the RO is not unhappy. The RO, during this two year period, 
has earned four end products (work credits). The end products claimed 
by the RO also show that it took only 6 months on average (instead of 
the 24 months it really took for the claim to be adjudicated) to 
adjudicate these claims. Therefore, the VA manager gets to claim three 
unearned work credits and to show an erroneously low time period to 
adjudicate these claims. That would help the manager earn a promotion 
and a bonus for such ``productive'' work.
    H.R. 3047, section 2 solves the above problem. The bill would 
prohibit the RO from claiming end product credit until the appellate 
period has expired. In the above case, the RO would not have been able 
to claim work credit until the appellate period expired. Because the 
veteran kept submitting evidence within the appellate period and 
because the veteran filed an appeal, the three extra end products could 
not be taken by the RO. The RO would have an incentive to adjudicate 
the claim correctly in the first place. This is something we should all 
want. This bill would prevent unfair, premature RO decisions.
    Fixing the VA work credit system is a topic that is near and dear 
to my heart. I have been involved in various aspects of veterans law 
for over 30 years. My experience tells me that unless the system is 
corrected most attempts to improve VA claims adjudication will not be 
successful because the driving force in VA adjudication will continue 
to be claiming quick work credit. This bill does not tweak the current 
system, it forces the VA to create new systems to manage its workload 
that will encourage adjudicators to properly and fairly deal with 
claimants seeking VA benefits.
H.R. 3047_Section 4, Treatment of the Beneficiary of the Veteran's 
        Accrued Benefits as the Claimant for Purposes of Incomplete 
        Claims Upon the Death of the Veteran
    NVLSP supports the intent of this bill. We believe the authors 
tried to cure the situation where a claimant for VA benefits dies 
before the final resolution of that claim and persons seeking accrued 
benefits are forced to go back and start at the beginning of the 
adjudication process. That is unfair and Congress should act to stop 
this from happening.
    However, because the bill limits its impact to situations where a 
claimant dies before completing the submission of a claim the bill does 
not go as far as we hoped. The law should be amended so that when a 
claimant who has submitted a claim dies before the final resolution of 
that claim, the person who would receive accrued benefits could 
substitute for the veteran.
Current Law
    Under the current law, if an individual who has filed a claim for 
VA benefits dies while the claim is pending before a VARO, the BVA, or 
a reviewing court, the pending claim dies as well. This is true for 
claims for disability compensation, pension, dependency and indemnity 
compensation (DIC), and death pension. See Richard v. West, 161 F.3d 
719 (Fed. Cir. 1998); Zevalkink v. Brown, 102 F.3d 1236 (Fed. Cir. 
1996); Landicho v. Brown, 7 Vet. App. 42 (1994). A survivor may not 
step into the shoes of the deceased claimant to continue or to appeal 
the claim--no matter how long the claim has been pending in the VA 
claims adjudication process.
A. The Route Surviving Family Members Have to Travel to Obtain Benefits 
        Based on the Deceased Claimant's Claim
    As a logical matter, some benefit claims that do not result in a 
final decision because the claimant dies before a final decision could 
be issued would result in a grant of benefits if the claimant had 
lived. Congress has provided a limited opportunity for certain specific 
surviving family members to obtain the benefits the deceased claimant 
had been seeking at the time of death. This opportunity for accrued 
benefits is quite limited however, as I will describe below.
  1. Only Certain Family Members May Apply for Accrued Benefits
    In order to obtain the benefits that the deceased claimant was 
seeking at the time of death, a brand new claim for benefits, called 
accrued benefits, must be filed. See 38 U.S.C. Sec. 5121, 38 C.F.R. 
Sec. 3.1000. Only certain surviving family members may pursue a claim 
for accrued benefits. An individual satisfying the definition of a 
surviving spouse may apply for accrued benefits. If there is no 
surviving spouse, a surviving child may qualify as a claimant, but only 
if he or she is: (a) unmarried and under the age of 18; or (b) under 
the age of 23, unmarried, and enrolled in an institution of higher 
education. If there is no surviving spouse or qualifying surviving 
child, a surviving parent may apply for accrued benefits but only if he 
or she was financially dependent on the claimant at the time of the 
claimant's death. No brothers or sisters or other family members may 
apply for accrued benefits. See 38 U.S.C. Sec. Sec. 101, 5121; 38 
C.F.R. Sec. 3.1000(d). \5\
---------------------------------------------------------------------------
    \5\ There is one narrow exception: Accrued benefits may be paid to 
reimburse any individual who bore the expense of the last sickness or 
burial--but only to the extent of the actual expenses incurred.
---------------------------------------------------------------------------
  2. Time Limits
    The application for benefits must be filed within one year of the 
date of the claimant's death. VA regulations do allow for extensions of 
time to file outside of the 1-year period, but only if the survivor is 
able to demonstrate ``good cause''. 38 C.F.R. Sec. 3.109(b). Thus, the 
VA may allow for an extension of time, but is not required to do so.
  3. No New Evidence Can Be Submitted
    The survivor also cannot submit new evidence to show that the 
deceased claimant is entitled to the benefits sought. Accrued benefits 
determinations can only be ``based on evidence in the file at date of 
death.'' 38 U.S.C. Sec. 5121. The VA regulations provide that 
``evidence in the file'' means evidence within the VA's constructive 
possession, on or before the date of death, but that would only include 
evidence like existing service personnel records or existing VA medical 
records. See 38 C.F.R. Sec. 3.1000(a); 67 Fed. Reg. 65,707 (2002). \6\
---------------------------------------------------------------------------
    \6\ The accrued benefits statute does provide that if a survivor's 
application ``is incomplete at the time it is originally submitted, the 
Secretary shall notify the claimant of the evidence necessary to 
complete the application.'' 38 C.F.R. Sec. 3.1000(c)(1) However, this 
``evidence necessary to complete the application for accrued benefits'' 
is information necessary to establish that the survivor is within the 
category of eligible survivors and circumstances exist that make the 
survivor the specific person entitled to the accrued benefits. That is 
to say, materials including the death certificate of the deceased 
claimant, marriage certificates demonstrating the status of an 
individual as a surviving spouse, birth certificates demonstrating the 
status of an individual as a child, or documentation of enrollment in 
studies at an educational institution are the only types of additional 
evidence that may be introduced. 67 Fed. Reg. 65,707 (2002).
---------------------------------------------------------------------------
  4. Limitations on the Types of Benefits that Qualify as Accrued 
        Benefits
    The opportunity for a qualified survivor to receive accrued 
benefits under section 5121 is restricted to pending claims of the 
deceased for ``periodic monetary benefits.'' To be a claim for 
``periodic monetary benefits'', the benefits must be the type that are 
``recurring at fixed intervals'', such as disability compensation.
    Many claims are for benefits that are not periodic monetary 
benefits. For example, in Pappalardo v. Brown, 6 Vet.App. 63 (1993), 
the Court held that a claim for a one-time payment for specially 
adapted housing reimbursement assistance under 38 U.S.C. Chapter 21 did 
not qualify as a claim for periodic monetary benefits for purposes of 
section 5121. This is so even though the family had already incurred 
the expense of remodeling the home in accordance with standards 
approved by the Boston VARO to meet the needs of the veteran, who had 
lost the use of both lower extremities 20 years earlier due to service-
connected post-encephalitic Parkinson's disease, and who died while the 
housing assistance claim was pending. Thus, an accrued benefits claim 
may only be granted if the deceased claimant would have been entitled 
to a benefit like monthly disability compensation or special monthly 
compensation benefits.
  5. Limitations on the Amount of Benefits
    The amount of accrued benefits available to a survivor may also be 
limited. For veterans who died prior to December 16, 2003 (the date of 
enactment of the Veterans Benefits Act of 2003), family members cannot 
receive more than two years' worth of accrued benefits, even if, for 
example, the survivor is able to prove that the veteran was entitled to 
ten years worth of benefits. The enactment of the VBA of 2003 removed 
the two-year cap, but only when the claimant with a pending claim died 
on or after December 16, 2003. Pub. L. No. 108-183, Sec. 104, 117 Stat. 
2651 (Dec. 16, 2003). \7\
---------------------------------------------------------------------------
    \7\ For deaths occurring on or after December 16, 2003, successful 
accrued benefits claimants are now entitled to the entire amount of 
benefits that would have been paid had death not occurred.
---------------------------------------------------------------------------
B. The Recent Court Decision Carving Out an Exception to the Harsh 
        Rules that Currently Exist
    Probably the harshest part of the rules that apply when a claimant 
with a pending claim dies before a final decision is rendered is that 
the survivor must start the claim all over again at a VARO, regardless 
of how far the pending claim had proceeded in the adjudication process. 
Even if the pending claim had made it up the chain to a reviewing 
court, which often takes many years, the survivor, who may be elderly 
or infirm, must still file a new claim at the VARO level and ``go to 
the back of the line.'' The inability of the survivor to substitute and 
pick up where the claimant left off can add years to the claims process 
and add to the burden of the agency, which must now address an entirely 
new claim where there had already been development of another claim 
raised by the deceased.
    Frustrated survivors have long sought to continue to prosecute a 
deceased claimant's disability compensation claim at the Court level. 
See, e.g., Zevalkink, supra; Landicho, supra at 47. In Padgett v. 
Nicholson, 473 F.3d 1364 (Fed.Cir. 2007), the Federal Circuit carved 
out a very limited exception to the harsh rule that a claim dies with 
the claimant. In a case like Mr. Padgett's, in which: (a) the veteran 
had appealed his claim all the way to the CAVC; (b) the CAVC issued its 
decision before it became aware that the veteran had died; and (c) the 
death occurred after all of the legal briefs had been filed with the 
CAVC so that there was nothing left to do but to issue a decision; then 
(d) the CAVC could keep its decision on the books by making it 
effective retroactive to the date of the veteran's death, and allow the 
surviving spouse to substitute for the veteran in the appeal before the 
CAVC.
    A recent VA General Counsel Opinion, VAOPGCPREC 2-2007, however, 
held that the decision in Padgett would have no effect on an appeal 
pending before the BVA when a claimant dies. The General Counsel held 
that 38 C.F.R. Sec. 20.1302 would require the Board to dismiss an 
appeal pending before the Board when the claimant dies--and survivors 
of a deceased claimant seeking accrued benefits at the Board level will 
still have to go to the ``back of the line''.
    Thank you for holding such an important hearing.

                                 <F-dash>

                                U.S. Department of Veterans Affairs
                                                    Washington, DC.
                                                      March 6, 2008

Hon. Bob Filner
Chairman
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

    I am pleased to provide the views of the Department of Veterans 
Affairs (VA) on H.R. 4084, 110th Congress, the ``Veterans Quality of 
Life Study Act of 2007.'' This bill was on the agenda for the 
Disability Assistance and Memorial Affairs Subcommittee's hearing on 
November 8, 2007. VA was not able to comment on the bill at the hearing 
because we did not have enough time to coordinate the Administration's 
views and estimate costs.
    Section 2(a) of H.R. 4084 would require VA, within 60 days of 
enactment of the bill, to contract with the Institute of Medicine or 
other appropriate entity to conduct a study to analyze the extent to 
which the VA rating schedule compensates for loss of a veteran's 
quality of life due to a service-connected disability and whether the 
schedule should be amended to compensate for such loss. Section 2(b) of 
the bill would require the study to be completed within 180 days after 
the date on which VA enters the contract. Section 2(b)(1) would require 
that the study examine: (1) the extent to which the current schedule 
compensates for loss of quality of life; and (2) specific approaches 
and instruments for measuring a service-connected disability's effect 
on a veteran's quality of life, including the veteran's psychological 
state, loss of physical integrity, and social inadaptability, and the 
ways other disability programs (of the Federal and State governments 
and of other countries) manage quality-of-life compensation. Section 
2(b)(2) of the bill would require the study to make recommendations 
concerning the appropriate standards for determining whether a service-
connected disability has caused a loss in a veteran's quality of life, 
the means for determining the appropriate level of compensation for 
loss of quality of life, and the practicability of implementing 
quality-of-life evaluations in the course of providing benefits 
relating to compensation and pension. Section 2(b)(3) would require the 
study to take into account advice and information received through 
consultations with public and private entities, veteran service 
organizations, agencies, and advocacy groups.
    Section 2(c) would require the Secretary, within 60 days after 
completion of the study, to submit to Congress a report that includes 
VA's recommendations with respect to the study's findings and 
conclusions regarding VA's rating schedule accounting for the loss of 
quality of life, and with respect to compensation that VA should pay 
for such loss and the basis for determining the amount of any such 
compensation.
    VA does not support section 2 because it is unnecessary. On 
November 9, 2007, VA solicited offers to conduct a 6-month study 
similar to that described in section 2. The study will analyze the 
nature of specific injuries and diseases for which disability 
compensation is payable under various disability programs of Federal 
and State governments and other countries, including VA's program. It 
will examine specific approaches and the usefulness of currently 
available instruments to measure disabilities' effects on an 
individual's psychological state, loss of physical integrity, and 
social inadaptability. The study will provide findings and 
recommendations on the following: (1) the service-connected 
disabilities that should be included in the schedule for rating 
disabilities; (2) the appropriate level of compensation for loss of 
quality of life and for loss of earnings; and (3) the appropriate 
standard(s) for determining whether an injury or disease, or 
combination of injuries and diseases, has caused a loss in a veteran's 
quality of life or loss of a veteran's earnings. The study will take 
into account the impact of medical advances on disability functioning. 
VA awarded the contract on January 25, 2008. Because the study will 
examine and make recommendations on the matters identified in 
subsections (b) and (c) of section 2 of the bill, legislation requiring 
VA to contract for such a study is not needed. The final report is 
expected the beginning of August 2008. We will be pleased to share the 
results of the study with the Committee.
    There would be no mandatory costs associated with section 2 because 
it would have no effect on benefit entitlement. We estimate that the 
discretionary costs for section 2 would be less than $2.8 million.
    Section 3 of H.R. 4084 would permit certain individuals to 
substitute for a deceased veteran claimant for purposes of completing 
the prosecution of any claim for VA benefits pending when the veteran 
dies. Under this provision, if a veteran dies while his or her claim 
for VA benefits is awaiting a final adjudication, the person who under 
current law would receive accrued benefits due to the veteran would be 
treated as the claimant for purposes of processing the veteran's 
pending claim to completion. If the person who would receive accrued 
benefits does not want to be treated as the claimant for these 
purposes, that person would be permitted to designate as the substitute 
claimant the person who would receive such benefits upon the death of 
the person who would otherwise be treated as the claimant under the 
provision. Section 3 would be applicable with respect to claims of 
veterans who die on or after the date of enactment of H.R. 4084.
    VA opposes section 3 because, as drafted, the provision raises 
several unresolved issues with respect to its implementation. Section 
5121(a) of title 38, United States Code, requires VA to pay accrued 
benefits (periodic monetary benefits to which a deceased claimant was 
entitled at death under existing decisions or evidence in the file at 
the time of death) to certain specified individuals (for a deceased 
veteran, the veteran's spouse, children, or dependent parents). Nothing 
is required of those individuals other than the filing of an 
application within 1 year of the claimant's death and proof that the 
individual qualifies as a payee under section 5121. However, only if an 
application is timely filed and the applicant establishes entitlement 
to accrued benefits would that person ``receive any accrued benefits 
due to the veteran.'' Only then could the person be treated as the 
claimant under section 3. As the claimant, the person could actively 
participate in the prosecution of the claim, such as by submitting 
additional evidence, testifying at a hearing, and appealing an 
unfavorable decision. Because section 3 would require only that the 
person be treated as the claimant but does not authorize actual payment 
of any benefits to the person, presumably section 5121 would remain the 
authority for paying to the substitute claimant any benefits based on 
the successful prosecution of a deceased veteran's pending claim. 
However, as indicated above, section 5121 requires that such benefits 
be paid on the basis of decisions existing or evidence in the file when 
the veteran died. It does not permit the submission of additional 
evidence. Furthermore, permitting a substitute claimant upon a 
veteran's death could require VA to develop a claim, including 
obtaining medical evidence on a veteran who could no longer be examined 
or authorize the release of protected health information. The laws of 
the various states govern the disclosure of protected health 
information by private health care providers, so VA and the substitute 
claimant would be limited by such laws in obtaining medical evidence 
concerning the deceased veteran.
    It would be possible under the bill language that more than one 
person could simultaneously be ``the claimant.'' Under section 5121, 
upon the death of a veteran and in the absence of a surviving spouse, 
the veteran's children or dependent parents may be entitled to accrued 
benefits. Therefore, under section 3, in the absence of a surviving 
spouse, ``the claimant'' could be two or more children of a veteran or 
two dependent parents. This situation could create complications if the 
persons disagreed as to how to prosecute the claim.
    Section 3 is unclear as to what would happen if the person who 
would receive a deceased veteran's accrued benefits does not want to be 
treated as the claimant. If, as section 3 would permit, that person 
designates as claimant ``the person who would receive such benefits 
upon the death of the person who would otherwise be treated as the 
claimant'' under the provision, but also pursues a claim for accrued 
benefits, then both persons would be pursuing a claim for the same 
benefits. Furthermore, the two claims could be decided on different 
evidence because a claim for accrued benefits under section 5121 is 
limited to the decisions existing or evidence on file when the veteran 
died, but a claim pursued under section 3 would not be so limited.
    Finally, VA objects to section 3 because it would treat veteran 
claimants differently from all other claimants. The provision permits 
substitution only for deceased veteran claimants, but not for other 
claimants.
    VA cannot estimate costs for section 3 because of these unresolved 
issues. We also do not have sufficient data to determine the number of 
veterans who die while awaiting final adjudication of their claims.
    Section 4 of the bill would require the chief judge of the United 
States Court of Appeals for Veterans Claims (Veterans Court) to submit 
to the Senate and House Committees on Veterans' Affairs an annual 
report summarizing the court's workload during the fiscal year 
preceding the report. Because section 4 would not affect VA operations 
or benefits, VA defers to the Veterans Court on section 4.
    Section 5(b) of H.R. 4084 would express the sense of Congress that 
the Veterans Court should be provided with appropriate office space to 
meet its needs, as well as to provide the image, stature, and security 
befitting a court that provides justice to veterans, and that Congress 
should avoid undue disruption, inconvenience, or cost to other Federal 
entities in providing the space. Section 5(c) of the bill would require 
the Administrator of General Services to submit to the Senate and House 
Veterans' Affairs Committees within 180 days after enactment a report 
on the feasibility of leasing additional space for the Veterans Court 
in the building where it is currently located and using the entire 
building as a Veterans Courthouse and Justice Center. Federal tenants 
of the building currently used by the Veterans Court would be provided 
an opportunity to comment on the subject of the report before its 
completion and on the draft report before it is submitted to the 
congressional committees. VA concurs in the bill's sense-of-Congress 
statement. Some of our Office of the General Counsel staff number among 
the building's current tenants, and we would be pleased to participate 
in the proposed study.
    The Office of Management and Budget has advised that there is no 
objection to the submission of this report from the standpoint of the 
Administration's program.

            Sincerely yours,
                                               James B. Peake, M.D.
                                                          Secretary

                                  <all>

</pre></body></html>
